<html>
<title> - APPALACHIAN ICE: THE METHAMPHETAMINE EPIDEMIC IN WESTERN NORTH CAROLINA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
APPALACHIAN ICE: THE METHAMPHETAMINE EPIDEMIC IN WESTERN NORTH CAROLINA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 11, 2006

                               __________

                           Serial No. 109-187

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-526                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
VIRGINIA FOXX, North Carolina        ELEANOR HOLMES NORTON, District of 
JEAN SCHMIDT, Ohio                       Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
         Dennis Kilcoyne, Professional Staff Member and Counsel
           Jim Kaiser, Professional Staff Member and Counsel
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 11, 2006...................................     1
Statement of:
    Emerson, John J., Assistant Special Agent-in-Charge, 
      Charlotte District Office, Atlanta Field Division, Drug 
      Enforcement Administration.................................    20
    Gaither, James C., district attorney, 25th Prosecutorial 
      District of North Carolina; Van Shaw, special agent, North 
      Carolina State Bureau of Investigation, Clandestine Labs 
      Response Program; Gary Clark, sheriff, Caldwell County, 
      North Carolina; C. Philip Byers, sheriff, Rutherford 
      County, North Carolina; and Lynne Vasquez, mother of 
      convicted meth dealer and addict...........................    38
        Byers, C. Philip.........................................    45
        Clark, Gary..............................................    42
        Gaither, James C.........................................    38
        Vasquez, Lynne...........................................    49
        Shaw, Van................................................    39
Letters, statements, etc., submitted for the record by:
    Byers, C. Philip, sheriff, Rutherford County, North Carolina, 
      prepared statement of......................................    47
    Clark, Gary, sheriff, Caldwell County, North Carolina, 
      prepared statement of......................................    44
    Emerson, John J., Assistant Special Agent-in-Charge, 
      Charlotte District Office, Atlanta Field Division, Drug 
      Enforcement Administration, prepared statement of..........    23
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina, prepared statement of.............    16
    McHenry, Hon. Patrick T., a Representative in Congress from 
      the State of North Carolina, prepared statement of.........    11
    Shaw, Van, special agent, North Carolina State Bureau of 
      Investigation, Clandestine Labs Response Program, prepared 
      statement of...............................................    41
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     5
    Vasquez, Lynne, mother of convicted meth dealer and addict, 
      prepared statement of......................................    52


APPALACHIAN ICE: THE METHAMPHETAMINE EPIDEMIC IN WESTERN NORTH CAROLINA

                              ----------                              


                        TUESDAY, APRIL 11, 2006

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                        Lenoir, NC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
the Commissioners Chamber, Caldwell County Government Offices, 
905 West Avenue NW, Lenoir, NC, Hon. Mark E. Souder (chairman 
of the subcommittee) presiding.
    Present: Representatives Souder, Foxx and McHenry.
    Staff present: Jim Kaiser and Dennis Kilcoyne, professional 
staff members and counsels; and Scott Springer, congressional 
fellow.
    Mr. Souder. The subcommittee will now come to order. Good 
morning and thank you all for coming.
    This morning, this hearing continues our subcommittee's 
work on the growing problem of methamphetamine trafficking and 
abuse--a problem that has ravaged communities across the entire 
country. I would like to thank my fellow subcommittee members, 
including our Vice Chairman Patrick McHenry, who invited us 
here to his district, as well as Representative Virginia Foxx 
of North Carolina's fifth district. Each of them has been a 
strong advocate in the House for an effective bipartisan anti-
meth strategy. I am looking forward to working with them on new 
legislation for this Congress, and I hope that the information 
we gather at this hearing will help us achieve that goal.
    Meth is one of the most powerful and dangerous drugs 
available, and it is also one of the easiest to make. It is 
perhaps best described as a perfect storm--a cheap, easy-to-
make drug with devastating health and environmental 
consequences, consuming tremendous law enforcement and other 
public resources, that is extremely addictive and difficult to 
treat. If we fail to get control of it, meth will wreak havoc 
in our communities for generations to come.
    This is actually the 12th hearing focused on meth held by 
my subcommittee since 2001. In places as diverse as Indiana, 
Oregon, Hawaii, and Minnesota, I have heard moving testimony 
about how this drug has devastated lives and families. But I 
have also learned about the many positive ways that communities 
have fought back, targeting the meth cooks and dealers, trying 
to get addicts into treatment and working to educate young 
people about the risks of meth abuse.
    At each hearing then, we try to get a picture of the state 
of meth trafficking and abuse in the local area. Then we ask 
three questions. First, where does the meth in the area come 
from and how do we reduce the supply? Second, how do we get 
people into treatment, and how do we keep young people from 
starting meth use in the first place? And finally, how can the 
Federal Government partner with State and local agencies to 
deal with this problem?
    The next question, that of meth supply, divides into two 
separate issues, because this drug comes from two major 
sources. The most significant source, in terms of the amount 
produced, comes from the so-called ``superlabs,'' which until 
recently were located mainly in California, but are now 
increasingly located in northern Mexico. By the end of the 
1990's, these superlabs produced over 70 percent of the 
Nation's meth, and today it is believed that as much as 90 
percent or more comes from Mexican superlabs. The superlabs are 
operated by large Mexican drug trafficking organizations that 
have used their established distribution and supply networks to 
transport meth throughout the country.
    The second major source of meth comes from small, local 
labs that are generally unaffiliated with major trafficking 
organizations. These labs, often called ``mom-and-pop'' or 
``clandestine'' labs or ``Nazi'' labs, in the lingo, have 
proliferated throughout the country, often in rural areas. The 
total amount of meth actually supplied by these labs is 
relatively small; however, the environmental damage and health 
hazard they create in the form of toxic chemical pollution and 
chemical fires make them a serious problem for local 
communities, particularly the State and local law enforcement 
agencies forced to uncover and clean them up. Children are 
often found at meth labs, and have frequently suffered from 
severe health problems as a result of the often hazardous 
chemicals used.
    As a side point, I just got a Blackberry message that in my 
District we had a meth lab case, not too far from my house, 
outside of the major city of Fort Wayne, which is 230,000 
people. And the guy got 45 years because the lab blew up, it 
killed his mentally handicapped sister; and the fire 
department, the local fire department, because there had not 
been a meth lab in that area, went charging in and the 
explosion occurred just as they were getting ready to enter, or 
the whole fire department, the volunteer fire group, would have 
been killed as well as the girl inside, because they did not 
know they were going into a meth lab case. So there are dangers 
associated with these mom-and-pop labs that are different than 
the crystal meth, the Mexican meth that is coming in.
    Since meth has no single source of supply, no single 
regulation will be able to control it effectively. To deal with 
the local meth lab problem, many States have passed various 
forms of retail sales restrictions on pseudoephedrine products, 
like cold medicines. Some States limit the number of packages a 
consumer can buy; others have forced cold medicines behind the 
counter. We now have a national law that will affect every 
State with that.
    However, these retail sales regulations will not deal with 
the large-scale production of meth in Mexico. That problem will 
require either control of the amount of pseudoephedrine going 
into Mexico, or better control of drug smuggling on our 
southwest border, or both. The Federal Government will have to 
take the lead if we are able to get results. And we have 
started to do that in our major meth bill as well.
    The next major question is demand reduction. How do we get 
meth addicts to stop using, and how do we get young people not 
to try meth in the first place? I am encouraged by the work of 
a number of programs at the State and local level, with 
assistance from the Federal Government, including the drug 
court programs, which seek to get meth drug offenders into 
treatment programs in lieu of prison time; the Drug-Free 
Communities Support Program, which helps the work of community 
anti-drug coalitions to bring drug use prevention education to 
young people; and the President's Access to Recovery treatment 
initiative, which seeks to broaden the number of treatment 
providers. But we should not minimize the task ahead; this is 
one of the most addictive drugs, and treatment programs 
nationwide have not had a very good success rate with meth.
    The final question we need to address is how the Federal 
Government can best partner with State and local agencies to 
deal with meth and its consequences. Currently, the Federal 
Government does provide a number of grants and other assistance 
programs to State and local agencies. In addition to the 
programs I mentioned earlier, the Byrne Grants and COPS Meth 
Hot Spots programs help fund anti-meth law enforcement task 
forces; the DEA and other agencies assist State and local 
agencies with meth lab cleanup costs; and the Safe and Drug-
Free Schools program and the National Youth Anti-Drug Media 
Campaign help schools and other organizations provide anti-meth 
education.
    However, we will never have enough money at any level of 
government to do everything we might want to do with respect to 
meth. That means that Congress and State and local policymakers 
need to make some tough choices about which activities and 
programs to fund, and at what level. We also need to strike 
appropriate balance between the needs of law enforcement and 
consumers, and between supply reduction and demand reduction.
    Fortunately, I believe a big step forward was taken last 
month when Congress passed and the President signed into law 
the Combat Methamphetamine Epidemic Act. This comprehensive law 
is designed to tackle meth trafficking at every State, from 
precursor chemical control to international monitoring, and 
from environmental regulations to child protection. There was 
strong bipartisan cooperation. The legislation moved through 
Congress quickly as Members got the message from the grassroots 
that meth does not respect State boundaries. We will be closely 
watching the implementation of this law and looking for new 
ways to thwart meth traffickers and help those individuals, 
families and communities that have been devastated by this 
drug.
    Today we have an excellent group of witnesses who will help 
us make sense of these complicated issues. For our first panel, 
we are joined by Mr. John Emerson, Assistant Special Agent-in-
Charge of the DEA's Charlotte Division Office.
    On our second panel, we are joined by Mr. James ``Jay'' 
Gaither, District Attorney of the 25th Judicial District; Mr. 
Van Shaw, Director of the Clandestine Labs Program of the North 
Carolina State Bureau of Investigation; Sheriff Phil Byers of 
Rutherford County, a veteran witness to our committee; and 
Sheriff Gary Clark of Caldwell County. We are also joined by 
Ms. Lynne Vasquez, who has a painful story to tell about her 
son's involvement with meth and how it has devastated her 
family.
    We thank everyone for taking the time to join us and look 
forward to your testimony.
    Now I will yield to Mr. McHenry.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T0526.001
    
    [GRAPHIC] [TIFF OMITTED] T0526.002
    
    [GRAPHIC] [TIFF OMITTED] T0526.003
    
    Mr. McHenry. Thank you, Mr. Chairman. Thank you for coming 
to North Carolina and to our 10th District. As we were 
discussing before, you are not a stranger to Lenoir nor the 
furniture industry. Being a former furniture retailer, you have 
visited here a number of times. But welcome back. Thank you for 
bringing the subcommittee here. I am very proud to work with 
you on combating the methamphetamine use and epidemic that we 
are facing as a Nation.
    I would first like to thank the County Commissioners here 
in Caldwell County for giving us the use of this chamber and 
providing us with the resources to be here today. So I would 
like to especially thank Chairwoman Faye Higgins, who is here 
today. Thank you, Faye.
    In March of this past year, President Bush signed into law 
the Combat Methamphetamine Epidemic Act of 2005. This act 
underscores the importance and need to focus attention on the 
rise of methamphetamine production, use and distribution across 
the country. Today, national law addresses precursor products 
by putting pseudoephedrine and ephedrine behind the counter, 
enhancing criminal penalties, while also addressing prevention, 
health and environmental concerns of methamphetamine.
    We have a number of experts on our panels today, I am so 
happy they are here today. We are being hosted today as well by 
Caldwell County Sheriff Gary Clark, who hosted a discussion 
among the 10th District sheriffs back about this time last 
year. Out of that discussion that Gary instigated, we were able 
to formulate some additional legislation that has been rolled 
into the Combat Meth Act. In particular, doubling the penalties 
for those that are producing meth or any type of controlled 
substance in the presence of a child. So thank you, Gary, for 
being here and being willing to testify.
    I would also like to thank Sheriff Phil Byers of Rutherford 
County. Philip testified last year before this committee, but I 
know, because of the problems that he has faced as the sheriff 
of Rutherford County with the rampant use of meth and the 
production of meth there, the innovation that he is putting 
into force on the streets. I am looking forward to hearing an 
update from him.
    I also appreciate Jay Gaither, who is our District Attorney 
here in Caldwell, Burke and Catawba Counties. Jay is going to 
discuss the impact of meth users on the court system. And as 
meth becomes more prevalent and, you know, our forces are put 
out into the streets to combat meth, he is going to relate to 
us how theft and other drug abuse and trafficking issues are 
affecting our local communities.
    The debilitating mental and physical effects of this drug, 
the production process, the way it touches everyone, especially 
in rural communities, are not being overlooked. Over the past 
few years alone, we have seen a dramatic increase in the number 
of meth labs in North Carolina. Mr. Van Shaw from the North 
Carolina State Bureau of Investigation, on our panel today, can 
attest to the fact that SBI agents first discovered about nine 
meth labs here in North Carolina in 1999. That was working with 
local law enforcement as well. This number has grown to 328 
found in 2005. You can see how rampant this increase has been.
    Also with us is Mr. John Emerson, Assistant Special Agent-
in-Charge with the Drug Enforcement Administration, who has 
worked with our local sheriffs and SBI and taken part in law 
enforcement operations within the past year targeting meth 
laboratory operators and traffickers here in western North 
Carolina.
    I look forward to discussing the future initiatives that 
the Federal Government and local officials will undertake to 
eliminate the meth problem in our State. Not only do the courts 
and local law enforcement have a unique challenge when it comes 
to meth, but child service programs, families, they bear the 
unfortunate burden of this drug, greater than any government 
agency. And we are going to have a witness here today that can 
attest to this in very personal terms. So we also must be 
concerned with the welfare of children and families and make 
sure that they are not neglected and torn apart by this drug as 
well. Ms. Lynne Vasquez--thank you for being here, Lynne, I 
certainly appreciate you taking time out of your schedule. I 
know it is going to be difficult for you to speak in front of 
such a large crowd and before us, but it is an important story 
and we appreciate you coming to talk about how meth has 
affected your family and affected your life as well, and how it 
has touched your child and your grandchildren. So thank you for 
taking your time to be here, Lynne.
    Let us just get down to it. Promoting awareness of this 
spreading problem, protecting our children, providing resources 
to those on the front lines are some of the key issues. And we 
need to solve this problem and learn more about how we can take 
innovative solutions that are happening here at the local 
level, with our sheriffs, with our district attorneys, with the 
SBI and DEA, working on the ground. Let us take this 
information and plug it back into what we can do at the Federal 
Government to have a comprehensive look at cracking this 
problem. Look, 25 years ago with crack cocaine on the rise, if 
the Federal Government had taken a comprehensive approach 
early, we would not be facing the severity of the problem that 
we are still facing with that drug.
    Hopefully, with the fast response of the Federal Government 
to put a comprehensive anti-meth bill in place, we can put the 
resources on the ground to root out this problem before it 
truly takes hold of our communities. In an effort to combat 
meth, as I said, the President signed in March a bill that 
included the small provision that I put in there doubling the 
penalties for individuals who manufacture or traffic controlled 
substances in the presence of a minor. This legislation, as I 
said, comes directly from local law enforcement agents working 
on the ground. And the sheriffs today I hope can give us 
additional ideas so we can continue to root out the rising use 
of meth. And let us make sure that we focus on our children, 
our families and our communities in this whole process.
    Mr. Chairman, thank you for bringing the committee here 
today. I thank the community for being here and being engaged 
and I appreciate the expert witnesses that we are about to hear 
from. I am also grateful that my colleague just to the north of 
us, Virginia Foxx, Congresswoman Foxx, who is also a first term 
Member of Congress, who I have enjoyed working with during my 
service both in the General Assembly in Raleigh and while in 
Congress. I appreciate Virginia being here as well. Thank you.
    [The prepared statement of Hon. Patrick T. McHenry 
follows:]

[GRAPHIC] [TIFF OMITTED] T0526.004

[GRAPHIC] [TIFF OMITTED] T0526.005

[GRAPHIC] [TIFF OMITTED] T0526.006

    Mr. Souder. As Congressman McHenry said, it is kind of like 
being home in more ways than one. Not only am I a furniture 
dealer, but I have a High Brighton dining room suite and High 
Brighton tables in our living room and my bedroom furniture is 
Broyhill, so I really do--and Hickory Tavern sofa--so I really 
do feel very much at home.
    Cass Ballenger was a close friend of mine and we went, when 
he headed the Central American Subcommittee, we have been in 
Guatemala, El Salvador, Honduras, Venezuela multiple times and 
Colombia and elsewhere and he gave one of the greatest 
introductions ever to the Republican Conference when 
Congresswoman Foxx was running. He introduced her as a spirited 
mountain woman. So we are really glad she is here today too. 
And do you have an opening statement?
    Ms. Foxx. Thank you, Mr. Chairman. You have a good memory.
    I want to thank the Caldwell County Commissioners for 
allowing us the have the hearing here today. I represented 
Caldwell County in the State Senate for one term and I am 
always happy to be in Caldwell County.
    I want to thank the chairman and the vice chairman for 
holding this field hearing in western North Carolina and thank 
you for listening to the successes and struggles of our 
communities with the scourge of methamphetamine abuse in our 
great State.
    Mr. Chairman, your leadership on this issue in Congress has 
resulted in tremendous gains on the war on meth that have 
rippled throughout the communities I represent. I am deeply 
appreciative of the work you do and for the opportunity to 
build on our successes with this hearing today. And I am 
particularly appreciative to Congressman McHenry for inviting 
us to come so close to my district here today.
    And I want to thank the members of the panel for the work 
that they are doing in their community, for collaborating with 
the subcommittee today in this constructive dialog on how to 
combat this crisis nationwide. I frankly was a little surprised 
when I got to Congress to learn what a nationwide problem this 
was. As a State Senator, I was quite aware of it and worked 
very hard to increase the penalties for dealing in meth and for 
having any involvement with it. And as the chairman mentioned, 
he had heard about a bust in his district and a fire, one of 
the reasons I got very involved with this was from a very 
personal situation also, in Watauga County where we had a 
volunteer fire department go to fight a meth fire in Deep Gap 
and Darien South, who was one of those firefighters, totally 
unaware of what was happening, is in the hospital now 
struggling for his life. The fire department responded, they 
did not know that this was a meth fire and he has lost most of 
the use of his lungs, as did some others have permanent 
injuries. So the people who are responsible for the meth lab 
only spent 2 years in prison, but our law enforcement people 
are going to spend the rest of their lives dealing with this. I 
was able to get an amendment in a meth bill in North Carolina 
to increase the penalties strongly for people who injure 
anybody involved with law enforcement.
    We had a hearing also in Washington and I was very glad, as 
Congressman McHenry was, to bring one of my constituents and 
community leaders, Sheriff Mark Shook from Watauga County to 
that hearing. He is a leader in this area and has done 
outstanding work in helping us reduce the number of meth labs 
in Watauga County. We have very little crime in Watauga County 
and most of it has been associated with drugs and with meth 
labs. But we have made great strides and the number of labs has 
gone down significantly and I am really pleased to have that.
    Our law enforcement personnel have valiantly raided meth 
labs and driven mass production out of our area and we have 
delivered a strong blow to the supply side of the problem 
locally, but without a national response, it will only drive 
production of this drug elsewhere. And as the chairman pointed 
out, we have to worry about the giant labs, the superlabs, but 
we need to be concerned about it everywhere. The outstanding 
job Sheriff Shook, Sheriff Clark and all of our sheriffs have 
done in our area must be duplicated at the Federal level if we 
are going to eradicate meth from our communities.
    We all agree that the response to the nationwide 
methamphetamine epidemic must be multi-faceted. If there were a 
quick and easy fix to the problem, we would have enacted it 
already, but the supply and demand intricacies are complex and 
our response needs to be an all-encompassing response. Some 
combination of controlling precursor chemicals, eliminating 
meth smuggling from Mexico, severely punishing offenders and 
empowering our law enforcement must be accomplished.
    I am proud to have supported the anti-meth bills that we 
have had in the Congress that have passed, and especially the 
provisions in the PATRIOT Act that President Bush signed into 
law on March 9th. Among other things, the law will make it more 
difficult to obtain the ingredients necessary to manufacture 
the drug, crack down on meth cooks, traffickers and smugglers 
by strengthening Federal criminal penalties.
    The challenge meth abuse poses is strong, serious and 
immediate, and so too must be our response. I look forward to 
receiving the testimony of our panelists and hope we can use 
that feedback to create a firm legislative response to the meth 
problem.
    Thank you again, Mr. Chairman.
    [The prepared statement of Hon. Virginia Foxx follows:]

    [GRAPHIC] [TIFF OMITTED] T0526.007
    
    [GRAPHIC] [TIFF OMITTED] T0526.008
    
    [GRAPHIC] [TIFF OMITTED] T0526.009
    
    Mr. Souder. Thank you. Before we hear testimony, we need to 
take care of some committee procedural matters first. I ask 
unanimous consent that all Members have 5 legislative days to 
submit written statements and questions for the hearing record 
and that any answers to written questions provided by the 
witnesses also be included in the record. Without objection, it 
is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents and other materials referred to by Members and 
witnesses may be included in the hearing record and that all 
Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    Let me briefly explain to those of you who may not be 
familiar with our subcommittee, a few things with procedural 
matters and what we do. This is an oversight committee. 
Congress is set up--and actually the oversight--the House was 
set up with funding, so appropriations has always been part of 
the House. The second group of committees that were established 
under the Constitution were oversight committees and then third 
were authorizing committees.
    The way theoretically that this works is that an 
authorizing committee today, for example, would pass an 
education bill like No Child Left Behind, the appropriators 
would fund it and then the oversight would go to Government 
Reform. This committee also has oversight over education, for 
example.
    We have oversight over all drug issues. Now we are also 
authorizing on drug issues. The drug czar office goes through 
our subcommittee, the Office of National Drug Control Policy 
goes through our committee as well as the Community Anti-Drug 
Act. So we are unique in the sense that we are the only 
committee that does oversight and authorizing on that issue.
    Most people knew our committee when President Clinton was 
in through a lot of the investigations we did there, on 
everything from Indian gaming to Waco, to those type of things. 
Today, in particular, the vice chairman and I got quite a bit 
of publicity off the steroids hearings, so we do not want to 
hear anybody here say ``we are not here to talk about the 
past,'' because in an oversight committee, that is what we do, 
we talk about the past and we try to figure out how to avoid in 
the future.
    We swear all of our witnesses in. The penalty for lying 
under oath is death, so you just need to know that. Not really. 
But we have prosecuted people for perjury--so far, not from any 
of my subcommittee hearings. Mark McGwire, for example, spent 3 
days trying to avoid a subpoena for the steroids hearings, went 
to several cities and did not want to testify the way he did 
because he knew he was under oath and that is why he did not 
want to testify because he could have been prosecuted based on 
some of what he said, which is why he did not want to talk 
about the past.
    The third thing is that we have a light system here because 
we take testimony for 5 minutes. At 4 minutes, a yellow light 
comes on, then red. Now we are going to do that with the 
southern drawl today, so it will go a little past the 5-minutes 
that we do in Washington, but roughly. You heard me go through 
the procedures, all the written statements will be in the 
record, anything else you want to submit, that record will be 
published as a hearing book that will be one of a series of 
this period. We have been doing a very thorough analysis of 
methamphetamine and there will be a published book. But so we 
can get to questions, if you can keep it close to that 
timeframe.
    Now Mr. Emerson, if you could come forth. In oversight, we 
always by committee tradition, do the Federal first, because 
that is our primary, is the Federal. And our first panel is Mr. 
John Emerson, Assistant Special Agent-in-Charge, Charlotte 
District Office of the Drug Enforcement Administration.
    If you will raise your right hand.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative.
    Thank you for being with us today. As noted earlier, we 
have been together in Bolivia a number of times and Cocha Bomba 
and Santa Cruz and it is good to be in a place where we are 
less likely to get shot at--at least hopefully--and where we 
have a President different than Evo Morales. Thank you very 
much for coming today and we look forward to your testimony.

   STATEMENT OF JOHN J. EMERSON, ASSISTANT SPECIAL AGENT-IN-
CHARGE, CHARLOTTE DISTRICT OFFICE, ATLANTA FIELD DIVISION, DRUG 
                   ENFORCEMENT ADMINISTRATION

    Mr. Emerson. You are welcome. Thank you.
    Chairman Souder and distinguished Members of Congress, 
before I start my testimony, I would like to take this moment 
to thank my other distinguished law enforcement panelists for 
their efforts in combating methamphetamine in western North 
Carolina. Sheriff Gary Clark of Caldwell County, Sheriff Philip 
Byers of Rutherford County and Assistant Special Agent-in-
Charge Van Shaw of the North Carolina State Bureau of 
Investigation have been outstanding partners in this fight. It 
has been my pleasure and that of my agency to work closely with 
you. Thank you for your efforts.
    In addition, I would also like to acknowledge the hard work 
of Mrs. Gretchen Shappert, U.S. attorney for the Western 
District of North Carolina and her staff of prosecutors who 
have been very supportive in the prosecution of methamphetamine 
lab cases.
    Chairman Souder and distinguished Members of Congress, my 
name is John Emerson, I am Assistant Special Agent-in-Charge of 
the Drug Enforcement Administration's Charlotte District Office 
in the Atlanta Field Division. On behalf of DEA Administrator 
Karen Tandy, the Atlanta Field Division Special Agent-in-Charge 
Sherri Strange, I appreciate your invitation to testify 
regarding DEA's efforts in the North Carolina area to combat 
methamphetamine.
    We have witnessed a rapid evolution of methamphetamine in 
North Carolina. While not new to the Atlantic southeast, we are 
now finding more meth than ever before. Law enforcement has 
been combating methamphetamine for well over 20 years and we 
have seen first hand its devastating effects. In the Atlantic 
southeast and across the Nation, we have led successful 
enforcement efforts focusing on methamphetamine and its 
precursor chemicals and have worked with our fellow law 
enforcement partners to combat this drug. Methamphetamine found 
in the United States originates from two general sources, 
controlled by two distinct groups. Most of the methamphetamine 
found in the United States is produced by Mexico and 
California-based Mexican traffickers whose organizations 
control superlabs. Current data suggests that roughly 80 
percent of the methamphetamine consumed in the United States 
comes from these large labs.
    The second source for methamphetamine in America is small 
toxic labs which produce relatively small amounts of 
methamphetamine and are not generally affiliated with major 
trafficking organizations. A precise breakdown is not available 
but it is estimated that these labs are responsible for 
approximately 20 percent of the methamphetamine consumed in 
America.
    Methamphetamine is a significant drug threat in North 
Carolina, where demand, availability and abuse remain high. The 
market for methamphetamine, both in powder and crystal form, is 
dominated by Mexican trafficking organizations. Small toxic 
labs produce anywhere from a few grams to several ounces of 
methamphetamine and they operate within this State. These labs 
present unique problems for law enforcement and communities of 
all sizes. The DEA, both nationally and in the Atlanta Field 
Division, focuses overall enforcement operations on the large, 
regional, national and international drug trafficking 
organizations responsible for the majority of the illicit drug 
supply in the United States.
    The Atlanta Field Division's enforcement efforts are led by 
DEA special agents and task force offices and State and local 
agencies who, along with our divergent investigators and 
intelligence research specialists, work to combat the drug 
threats facing North Carolina. During the last year, our 
efforts in North Carolina have resulted in significant 
methamphetamine-related arrests, some of which occurred as part 
of investigations conducted under the Organized Crime Drug 
Enforcement Task Force Program and the Priority Target 
Organization Investigations Program. The western portion of 
this State is a hot spot experiencing a surge in 
methamphetamine trafficking, but DEA is working with other law 
enforcement agencies in a campaign to fight its increased 
presence.
    Training is vital to all law enforcement officers involved 
in this hazardous investigation and since 1998, DEA's Office of 
Training has provided training to over 12,000 officers from 
across the country. Since fiscal year 2002, our Office of 
Training has provided clandestine laboratory training to more 
than 154 officers from North Carolina.
    In 1990, the DEA established a hazardous waste cleanup 
program to address environmental concerns from the seizure of 
clandestine drug laboratories. This program promotes the safety 
of law enforcement personnel and the public by using companies 
with specialized training and equipment to remove hazardous 
waste. The DEA's hazardous waste program with the assistance of 
grants to State and local law enforcement supports and funds 
the cleanup of a majority of the laboratories seized in the 
United States. In fiscal year 2005, the cost of administering 
these cleanups was approximately $17.7 million. Through our 
hazardous waste program since fiscal year 2004, DEA has 
administered nearly 552 lab cleanups in North Carolina at a 
cost of over $1.1 million.
    The DEA is keenly aware that we must continue our fight 
against methamphetamine. Nationally and within North Carolina, 
we continue to fight on multiple fronts. Our enforcements are 
focused against methamphetamine trafficking organizations and 
those who provide precursor chemicals. We are also providing 
vital training in lab cleanups to our State and local 
counterparts who are outstanding partners with us in combating 
this problem. Law enforcement has experienced some success in 
this fight, but much work remains to be done.
    Thank you for your recognition of this important issue and 
the opportunity to testify here today. I will be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Emerson follows:]

    [GRAPHIC] [TIFF OMITTED] T0526.010
    
    [GRAPHIC] [TIFF OMITTED] T0526.011
    
    [GRAPHIC] [TIFF OMITTED] T0526.012
    
    [GRAPHIC] [TIFF OMITTED] T0526.013
    
    [GRAPHIC] [TIFF OMITTED] T0526.014
    
    [GRAPHIC] [TIFF OMITTED] T0526.015
    
    [GRAPHIC] [TIFF OMITTED] T0526.016
    
    Mr. Souder. Thank you very much for being here and for 
DEA's steady work. I have expressed a lot of frustration on the 
House floor and to the individuals involved about the drug czar 
office's lack of response on meth. They last week presented, 
the ONDCP, to the Hill, to the meth caucus, started to present 
their meth plan which they waited until we passed the bill and 
then decided to come up with a plan about 5 years late. DEA, on 
the ground, has been doing this, as you pointed out, for 20 
years and in particular under Director Tandy has been very 
aggressive. But once again, it was kind of interesting because 
it appears it came from the bottom up. In other words, the DEA 
offices were dealing with the meth on the ground and the 
Washington headquarters was not even aware of how much DEA was 
immersed in the battle on methamphetamine because this is 
probably the first drug issue we saw, particularly in the small 
labs, where it was coming at Washington from the grassroots 
level rather than being defined as a national problem and going 
back down.
    A lot of States had already put in the pseudoephedrine 
controls, the Federal control will not actually take effect 
until I believe October 1st, although some implementation 
starts to go through on June 30th on some types of drugs. Have 
you started to see in the zone that you are working some drop 
in the meth labs because of the feeling that there is a 
tightening up, local law enforcement being more aware of it and 
an increased move to crystal meth yet? Or how is it working in 
this zone?
    Mr. Emerson. Last year, in calendar year 2005, we saw what 
we are calling like a leveling off of the labs. They were 
roughly doubling each year from 1999 through 2004. They were 
anticipated to go somewhere near 600 at the end of 2005. The 
number was 328 and opposed to 322 the year before. So we saw 
some leveling off last year.
    The pseudo law that North Carolina courageously passed last 
year and went into effect January 15th this year has been in 
effect for almost 3 months and the Attorney General just 
released information that the labs are down about 30 percent 
for this first 3 months of the year as opposed to the same 
period last year. So we have seen some effects, a leveling off 
last year and then with the law in effect this year, a slight 
decline for the first 3 months of the year.
    Mr. Souder. When the pseudoephedrine law--this is just kind 
of a curious question, I have no idea what--there is always a 
danger in asking a question when you have no idea where this 
answer is going to go. But have you seen any direction out of 
either DEA or out of the drug czar's office or out of the FBI 
or anybody's office, DHS at the border, that now that we are 
going to do this federally on October 1st, but also that when a 
State pseudoephedrine law takes effect, that there is a 
strategy shift that says every other place that did a 
pseudoephedrine law in the United States, that crystal meth 
came in behind it within 6 months and that somehow there needs 
to be an adjusting to understand who is going to supply the 
meth in that region. There is no exception. In Oregon and 
Washington, Hawaii that were the first States that had the big 
meth problems, this happened. Oklahoma, which touted their law, 
is now overrun with crystal meth and the regulation of 
pseudoephedrine, while it is better for local law enforcement, 
really is not better for the people who get addicted. In fact, 
it is cheaper and more potent.
    Is there a strategy that says when we do this, this is how 
the drug dealers are going to react, and drug addicts?
    Mr. Emerson. We have certainly talked about it and 
certainly we have received information like that from our 
headquarters about shifts in patterns and trends. We do see 
that information out of headquarters. And we also, as you heard 
from my testimony, believe that 80 percent of the meth that 
comes into the States, including North Carolina, is from 
Mexican organizations. So we are already focused on identifying 
organizations, Mexican traffickers. We have been tracking them, 
arresting them when we have sufficient evidence for a number of 
years, and we plan to continue to do that.
    But in a local sense, because the pseudo law is in effect, 
both statewide and federally, we, in planning our strategy for 
this coming year versus last year, I see us more working toward 
the Mexicans than we did with the labs last year. We took a lot 
of cases on regular local labs under Federal conspiracy laws, 
especially in Rutherford and McDowell Counties, which were the 
worse two counties hit by the labs. So we had a lot of emphasis 
on that last year. But we do expect to see more this year 
because of the pseudo laws to look at the Mexican 
organizations, a couple of particular areas that we know are 
hot spots for meth trafficking in the western part of the 
State.
    Mr. Souder. One of the things that has been unusual in meth 
other than other drugs is that the mom and pop labs are not 
where the traditional drug trafficking organizations have been. 
In other words, if you take, in my district, Fort Wayne will 
have a coke problem, will have no mom and pop labs in Allen 
County except one rural town had one. Just north of it, there 
was a county that is getting anywhere from 70 to 100 labs in 
that county alone and yet 10 miles away, they do not have any 
meth. As the pseudoephedrine law takes effect in Indiana, what 
we are seeing is the crystal meth move into some of these small 
towns that, generally speaking, meth has been more of a white, 
blue collar drug, crystal meth has a slightly different 
variation. Cocaine has been more in the urban areas and you 
have got a different mix.
    The question is OK, now, what do you do if in these rural 
areas where you have much less law enforcement resources, much 
less treatment resources, if their kind of mom and pop meth, 
Nazi lab meth, turns into crystal meth, how are we going to 
deal with a different mechanism. Now presumably it will still 
be coming--is this your assumption, still going to come through 
Charlotte or through Atlanta, Knoxville, into the mountains in 
this case, even if it is going into a different population? How 
do they develop a network to reach that market, because this 
traditionally would not be a market that is supplied through 
those organizations. That is what Oklahoma has run into and 
eastern Oregon.
    Mr. Emerson. The way we have done this traditionally is 
keeping good relations with our State and local partners. They 
see things first on the ground, the local sheriff's office, the 
local police departments, they are going to see those trends 
and they help us identify targets, they bring information to 
us, intelligence. We have agents assigned to particular 
counties and their job is to coordinate with those local law 
enforcement officers to identify those trends and patterns and 
identify specific traffickers that we would target then for 
investigation. So I hope the answer to your question is that 
through intelligence, by having our agents doing what they are 
supposed to be doing out in the field, that they are going to 
gather the intelligence on who those traffickers are and try to 
cutoff that supply when we can.
    Mr. Souder. Is there a regional DEA task force in this zone 
anywhere? What is the closest, Charlotte?
    Mr. Emerson. Yes there is a task force in Charlotte and 
there is a task force in Asheville, the Asheville post of duty.
    Mr. Souder. And are these counties included in either of 
those?
    Mr. Emerson. Yes. Well, not every county participates 
because they do not generally have a lot of manpower and they 
cannot--you have to dedicate someone full time to a task force. 
But we do have agents assigned that are either part of the task 
force or not part of a task force, but they have a certain 
county assignment, so we would have an agent who works with, 
let us say, three counties with the sheriffs' departments, the 
police departments, in those counties. And his job is to be out 
there working with those officers and identifying the biggest 
traffickers in those particular counties and then making that 
case go from a local level case to a Federal level case, so we 
can take it into Federal court and have the best option for 
prosecution and length of sentence.
    Mr. Souder. What is the closest meth hot spots for them, 
eastern Tennessee? Are there any in North Carolina?
    Mr. Emerson. I do not know.
    Mr. Souder. You do not know. If you do not know the answer 
to the question, there probably is not one. And is the closest 
HIDTA--what is the closest HIDTA?
    Mr. Emerson. There's a small HIDTA in Atlanta. It is an 
urban two-county HIDTA, I believe. And then Tennessee has a 
couple of HIDTA offices and I believe they are a spinoff of the 
Appalachian HIDTA.
    Mr. Souder. So nothing in North Carolina?
    Mr. Emerson. Nothing in North Carolina.
    Mr. Souder. South Carolina either?
    Mr. Emerson. No.
    Mr. Souder. So Baltimore/Washington would be the closest to 
the north and Atlanta is focused heavily on the airport and 
downtown?
    Mr. Emerson. That is right.
    Mr. Souder. Thanks. Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman.
    The question I have for you, Mr. Emerson, you discussed the 
DEA has administered 552 lab cleanups in North Carolina. Do you 
see that--where do you see that trend going this year and next 
year?
    Mr. Emerson. Well, I think it is a little hard to say at 
this point because the Federal pseudo law, as Mr. Souder 
pointed out, is still going into effect, the State law just 
went into effect in January. If we look at other States that 
have passed the pseudo law, there has been generally a 30-40 
percent reduction in labs I believe and we have already seen a 
30 percent reduction more or less in the first 3 months. So we 
hope this year with the aggressive prosecution federally that 
we did of traffickers, of meth cooks last year, along with 
enhanced North Carolina laws with increased sentencing, plus 
the pseudo law, both State and Federal, that there will be a 
reduction this year. Obviously we will not know that until the 
end of the year. But we hope that is the direction that the 
small toxic labs are going.
    Mr. McHenry. Now you also mentioned the clandestine 
laboratory training that you provide to local law enforcement. 
I know some of our sheriffs' departments have taken advantage 
of that, not out of want but out of need and necessity. Where 
do you see this training going?
    Mr. Emerson. I see more classes coming out of Quantico. I 
think we have teletypes in now for three more classes very 
rapidly, May, June, and July, I believe there are new classes. 
And we have a certain amount of slots in the Atlanta Field 
Division for local officers to go, State and local officers, to 
go to those classes. It seems to me that the amount of classes 
increased this year from last year, from what I can tell.
    Mr. McHenry. Part of the question I have from local law 
enforcement on a frequent basis, and I had a conversation to 
this effect with a sheriff in my district, was the staffing 
levels for the lab cleanups. It is just very difficult because 
of the size of North Carolina, the number of cleanups you have 
to administer, to get a very quick turnaround time for lab 
cleanup. So oftentimes you have to have a sheriff's deputy 
posted at a lab for 24 or 48 hours, 72 hours, just to make sure 
no one enters the lab. Where do you see the staffing levels go 
for this, and their response time?
    Mr. Emerson. Well, actually, with that program, DEA just 
administers the funds. The protocol in this State is the State 
Bureau of Investigation is the primary agency that responds to 
the lab, they are a great team, they have been around for 
years, they are well-equipped. They are the team that responds. 
Although DEA has people to do that, the protocol in this State 
has always been that SBI does that and it does such a great 
job, it is a big advantage for us. But then, through the COPS 
funds, private contractors come out and actually do the 
cleanup. So that is not a staffing issue for us. That is done 
through those contracts.
    But the container program that has been established in 
Kentucky, which I believe is spreading through a number of 
other States, is a goal to help reduce that amount of time. 
Whereas certified law enforcement officers would go to the 
scene, clean up whatever evidence there is of the lab there, 
bring it to a container and that would happen in a short period 
of time and then the contractor would go to the container and 
pick up the waste and then dispose of it within a week's time. 
So that is DEA's goal, is to move that, to cut down that time 
period by spreading this container program and the costs are 
much more reduced that way. The average cost of a lab cleanup 
nationwide is $1,900 per lab. With the container program, it is 
$350 per lab. So that is the way DEA is looking to try to 
reduce that time and save money.
    Mr. McHenry. When do you see that coming to North Carolina?
    Mr. Emerson. North Carolina is one of the States slated for 
it. The timeframe I am not sure of, but I saw that they are on 
the list for a visit to present the program in North Carolina.
    Mr. McHenry. Thank you. And thank you for coming and thank 
you for your testimony.
    Mr. Emerson. You are welcome, thank you.
    Mr. Souder. Thank you. Ms. Foxx.
    Ms. Foxx. Last summer, the DEA concluded Operation 
Wildfire, which is described as the largest national law 
enforcement operation to target meth manufacturing and 
distribution to date. Can you tell us what the impact was in 
North Carolina? Did the operation meet its goals and what were 
some of the lessons that we learned from that?
    Mr. Emerson. Yes, ma'am. We were certainly, I think for 
those days, were more successful than we had planned. We had a 
number of targets that we were interested in. We went to our 
State and local counterparts looking for targets, people that 
had been involved in meth-related crimes, especially repeat 
offenders. Our goal was to have some impact to find labs and 
to--primarily find labs and to arrest people that there were 
warrants out for, to find out if there were any children in 
homes where meth was being cooked. So it was a surge operation 
to try to have some impact for a period of time in the western 
part of the State. I think we involved some 15 counties, other 
Federal agencies, Probation and Parole, Department of Social 
Services. We arrested 70 people in about a 3-day period, which 
was the highest number anywhere in the country of the 427 
arrests that took place nationally.
    So for that short period of time, I think it was an impact. 
We got a number of people off the street, especially some 
repeat offenders. Long-term, I am not sure if there was any 
really long-term impact from that, but at the time, we seized 
six labs, we seized about 64 grams of methamphetamine, I think 
30 guns, some cash. So there was some impact for a period of 
time.
    Ms. Foxx. Thank you.
    Mr. Emerson. You are welcome.
    Mr. Souder. I had a few followup questions.
    Are the main trafficking organizations, is the pattern 
coming from--is the primary point across the Mexican border or 
up through Florida here?
    Mr. Emerson. The Mexican border.
    Mr. Souder. Laredo, El Paso, or Arizona, more to the 
southeast?
    Mr. Emerson. We have cases with Tucson, Phoenix, but 
primarily McAllen, Laredo are probably our biggest, but we have 
seen from Arizona and actually Los Angeles has been very active 
lately.
    Mr. Souder. Do you see anything in this region coming from 
the Tri-Cities area or Washington State or where it goes up and 
across?
    Mr. Emerson. No, sir.
    Mr. Souder. Is it mostly Mexican or is it Central American 
as well?
    Mr. Emerson. Mostly Mexican.
    Mr. Souder. Any signs out of Charlotte in this region of 
the Salvadoran gang distribution or you do not have as much----
    Mr. Emerson. There is MS-13 presence in Charlotte and some 
other gangs and they are involved in drug trafficking, but we 
see much more street level and we have not really gotten 
involved in that that much, with so many other priorities on 
larger Mexican trafficking organizations that have moved into 
North Carolina. But there is gang activity for sure in 
Charlotte.
    Mr. Souder. And have you seen any sign of meth moving into 
the African-American population in North Carolina?
    Mr. Emerson. I have heard of it, but we have not seen it 
that much as far as cases and arrests. But we have heard about 
it. But we do not see it as any growing trend at this point.
    Mr. Souder. Are there any tensions between where the 
Mexican trafficking organizations are hitting the African-
American trafficking organizations that traditionally have had 
cocaine?
    Mr. Emerson. We have not seen that at the wholesale level. 
The Mexicans dominate the trafficking situation here.
    Mr. Souder. There is a mythology developing that the 
African-American population will not use meth. But in 
Minneapolis in one of our hearings, we heard that in one 
neighborhood, the African-American trafficking organizations 
started selling meth and within 3 months, 20 percent of the 
addicts in Minnesota, Minneapolis, were African-American meth 
addicts and it was just one neighborhood of the city. It had 
spread faster than crack. And it is something we are watching 
very closely because if crystal meth substitutes for cocaine, 
we just are not ready to handle it. And when it hits an urban 
area--because traditionally this has been more of a rural 
problem--in St. Paul, on the other side, which was a totally 
different thing in the Minnesota hearing--in St. Paul, the 
number of kids in child custody went from zero to 90 percent 
with meth addicts' kids with no labs, no labs at all, it was 
all crystal meth--90 percent in 6 months when it hit the city, 
much like the way crack takes over a city.
    Omaha, I believe, and there is a little bit at the edge of 
Detroit, but very little even crystal meth in most cities. Is 
that true here too? Even in the crystal meth, does it tend to 
be out from the major cities a little bit more?
    Mr. Emerson. Meth is definitely our biggest problem in the 
rural areas, but there is no doubt, there is a good 
availability of meth in the urban areas of Charlotte 
particularly, more than other parts of the State or the bigger 
cities in the State. We see more meth coming into Charlotte. We 
still see that though with Caucasians mostly, the meth use. We 
have not seen that hit--there is a steady supply of cocaine 
that comes in here through Mexican traffickers, so there is 
still a good supply of cocaine coming in unfortunately for the 
Charlotte area and other bigger cities in North Carolina.
    Mr. Souder. Winston-Salem and Raleigh?
    Mr. Emerson. Cocaine is primarily what we seize.
    Mr. Souder. And what about on college campuses, have you 
seen any crystal meth around the college campuses?
    Mr. Emerson. Some, but again, we do not really deal that 
much at the retail level, so I cannot answer that question for 
you completely. We hear more about Ecstasy and marijuana on the 
college scene than we do with meth, but certainly, as you know, 
meth knows no bounds. So it is there, we just do not see it at 
a level that has come to our attention.
    Mr. Souder. Two weeks ago, the New York Times reported 
that--which we had been picking up at the edges of our 
hearings--that on the Indian Reservations in America and the 
Indian Nations, at least west of the Mississippi, meth has 
replaced alcohol as the No. 1 problem, which historically has 
been the problem. It has devastated in Arizona, Montana, upper 
Dakotas, just overwhelmed even the alcohol problem. Have you 
seen any of that in Cherokee or any of the Indian Nations here?
    Mr. Emerson. Meth is a problem on the reservation and we 
have met with Chief Hicks of the Cherokee Tribe and after 
meeting with them and their officers there, I think we have a 
consensus on the source of that meth. And instead of trying to 
work on that reservation at the retail level, we are familiar 
with the sources for the meth coming to the reservation and we 
have plans to work those cases.
    Mr. Souder. Thank you.
    Any other questions?
    Ms. Foxx. I have one more question.
    There is a lot in the news in the last few days about 
immigration and particularly illegal immigration. The journey 
from Mexico to North Carolina is a long one, especially for 
somebody with illegal drugs and probably someone who is coming 
here illegally. Do you have any suggestions on what we could do 
to interdict meth traveling from Mexico to North Carolina?
    Mr. Emerson. Certainly the more intelligence we have, the 
better off we are going to be. The best cases are always 
derived from the best intelligence. So any way that we can 
develop more intelligence, we are trying to do that all the 
time through all the sources and means that we have and working 
with our State and local partners. Certainly if there is any 
suggestion, the State and local interdiction teams on the 
highways have been a great asset to us, not only for 
interdicting drugs coming northbound, but money going 
southbound. But the intelligence that we derive to initiate 
Federal investigations or we see that there are ties into other 
ongoing nationwide or even global investigations has been a 
great help to us.
    So certainly I think any help that could be done for 
improving the interdiction team situation would be a great help 
for us and for other States.
    Ms. Foxx. Thank you.
    Mr. Souder. Well, the good news is we are going to have the 
southwest border controlled in the next 60 days or so. 
[Laughter.]
    Mr. Emerson. That is good news.
    Mr. Souder. Thank you for your testimony. We may have a few 
more written questions, but appreciate your leadership and work 
in this area.
    Mr. Emerson. Thank you very much.
    Ms. Foxx. Thank you.
    Mr. Souder. If the second panel could now come forward. Mr. 
Gaither, Mr. Shaw, Sheriff Clark, Sheriff Byers, Ms. Vasquez.
    If you would remain standing while I give you the oath. 
Please raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative. I will now yield to Mr. McHenry 
for the introductions.
    Mr. McHenry. Thank you, Mr. Chairman. I certainly 
appreciate the distinguished panel we have here today, and in 
order of testimony, I will introduce the distinguished panel 
that we have put together here for the committee's attention.
    First, we have James C. ``Jay'' Gaither, Jr., the District 
Attorney for the 25th Prosecutorial District--that is a 
mouthful--encompassing Burke, Caldwell and Catawba Counties, a 
resident of Catawba County.
    Jay graduated from Davidson College with a undergraduate 
degree, then graduated from law school from California Western. 
Has had extensive prosecutorial experience as well as law 
experience. In 2002, he was elected district attorney.
    Mr. Gaither and his wife Beth live in Hickory and have four 
children.
    In 2005, Mr Gaither was successful in drafting and helping 
pass Rachel's Law which increased the punishment for shooting 
into occupied dwellings and vehicles, an incident that involved 
someone that Mr. Gaither had been involved in helping their 
family.
    So thank you for being here, Jay.
    Mr. Gaither. Thank you, Congressman.
    Mr. McHenry. Next testimony will be from Mr. Van Shaw from 
the State Bureau of Investigation, he's the Assistant Special 
Agent-in-Charge. He has worked for the SBI for 19 years, 
including the last 4 as clandestine laboratory response unit 
supervisor. He helped initiate the Drug-Endangered Children 
Program and also in the State of North Carolina pseudoephedrine 
restrictions and increased penalties for meth production.
    Thank you, Mr. Shaw, for being here.
    Next, we have Sheriff Gary Clark, our host here today, with 
22 years of law enforcement experience here in Lenoir. He was 
elected sheriff in 2002. He has gone on to be involved in a 
number of meth lab seizures, has been a real innovator in this 
area of law enforcement.
    He is also a graduate of Law Enforcement Executive Training 
from UNC-Chapel Hill and he has over 4,000 hours of training in 
law enforcement.
    Thank you, Mr. Clark, for being here.
    Finally, we have Sheriff C. Philip Byers. Philip is the 
sheriff since January of this year in Rutherford County. Before 
that, he served for 15 years with law enforcement service and 
experience, including the previous 4 as chief deputy of 
Rutherford County.
    He has an undergraduate degree from Appalachian State 
University and he has a masters of public administration from 
Western North Carolina University.
    He and his wife, Sheila, reside in Rutherford County.
    Finally, our last witness of the day, Ms. Lynne Vasquez. 
She has a personal story to tell of her son Chad, who got mixed 
up in meth, and because of that is now serving a sentence in 
jail. And Ms. Vasquez has been a wonderful grandmother to her 
two grandchildren and has since adopted them and taken custody 
of these two grandchildren. She is going to tell a personal 
story today of how meth has affected her family. And this is a 
story that, Ms. Vasquez, unfortunately other people have the 
same story that you have. But I appreciate you being willing 
enough to be here today to tell the public what you have faced 
and how meth harms families, what it does to individuals. I am 
sure your son was a good young man and just got messed up in 
horrible, horrible, destructive drugs that just took hold of 
this fine young man.
    I appreciate you being here and being willing to testify. 
Thank you, Lynne.
    Mr. Chairman, I yield back.
    Mr. Souder. Well, our first witness is Mr. Gaither, and the 
Indiana Gaithers would sing their testimony. We would 
appreciate it if you just would state it rather than sing it. 
[Laughter.]

    STATEMENTS OF JAMES C. GAITHER, DISTRICT ATTORNEY, 25TH 
  PROSECUTORIAL DISTRICT OF NORTH CAROLINA; VAN SHAW, SPECIAL 
     AGENT, NORTH CAROLINA STATE BUREAU OF INVESTIGATION, 
    CLANDESTINE LABS RESPONSE PROGRAM; GARY CLARK, SHERIFF, 
  CALDWELL COUNTY, NORTH CAROLINA; C. PHILIP BYERS, SHERIFF, 
RUTHERFORD COUNTY, NORTH CAROLINA; AND LYNNE VASQUEZ, MOTHER OF 
                CONVICTED METH DEALER AND ADDICT

                 STATEMENT OF JAMES C. GAITHER

    Mr. Gaither. Thank you, Chairman Souder. The information 
that the Gaithers were based in Indiana was not known to me. I 
knew they were from Tennessee and I do claim kinship. As long 
as they do not deny it, I will claim it. They are a great name 
to share.
    I am Jay Gaither, the District Attorney for the 25th, 
Burke, Caldwell and Catawba County.
    I want to thank Congressman Patrick McHenry for his concern 
regarding the methamphetamine epidemic in our counties and 
thank the Congressman for your part in introducing and passing 
new Federal laws protecting children threatened by the 
manufacture of this awful substance, and thank you for drawing 
attention to the growing crisis in our communities by calling 
this hearing today.
    Chairman Souder, thank you for traveling from Indiana, this 
week in particular, where a lot of people like to be at home 
with their families. We appreciate you being here in North 
Carolina.
    Congresswoman Foxx, when you were a State Senator, I recall 
when I would send you e-mails concerning issues regarding the 
drug trade in North Carolina, I could not hardly get up from my 
desk but that I had a response. You are one of the most 
responsive elected officials I have ever known and it is good 
to see you again. I have not seen you since you have been 
elected. Congratulations.
    As a State prosecutor now for 3 years, one of the first 
things I realized was the quick response of the Federal 
Government far outpaced the State's abilities. The ability for 
the Federal Government to apprehend and incarcerate these 
individuals who manufacture and traffick methamphetamine was 
impressed upon me immediately. I met with Gretchen Shappert 
within the first month after my election and since that time 
have been working closely with the Federal Government and am in 
awe of the men and women who put their lives on the line for 
the State of North Carolina and for the U.S. Government here in 
western North Carolina. It has been a privilege to work with 
each and every one of them and to watch how they work with my 
local law enforcement.
    At the same time, North Carolina cannot abdicate its 
responsibilities, should not in my opinion be taking the 
relatively light steps that we are taking to address this 
epidemic. The punishment for selling and delivering 
methamphetamines or for possessing methamphetamines is woefully 
weak here in North Carolina. We need new prisons and we need 
tougher laws.
    Probably the most important thing that can be addressed 
resources wise, and it has already been touched on, is the lab 
issue in the State of North Carolina. Our State Bureau of 
Investigation's lab is woefully under-funded; 9 months to 12 
months is how long we have to wait in order to get a lab report 
back. The biggest problem for me there as a prosecutor is until 
I get that lab report back, my prosecution summary is not 
complete and I cannot go forward with a prosecution.
    Oftentimes, these individuals are arrested in our 
communities and then they are released back into the community. 
The impression that people get is that they have been released 
and are not going to be prosecuted. For 9, 10, 11, 12 months, 
they continue to trade in drugs and they continue to flaunt our 
laws with no apparent repercussions for the arrest that has 
been made by the Sheriff's Department and the task force. And 
that just increases, I think, the likelihood of further 
criminal activity and the likelihood that our laws will be 
taken lightly when people are out there who have been arrested 
but not yet capable of prosecution because of the shortage of 
funding for the labs and the slow time that--or the long time 
that we have to wait for that SBI lab report to come back. We 
need increased funding for the lab and for law enforcement.
    The final thing I want to talk about is my desire to see 
good things come out of this hearing today and also for local 
and State government to start looking at public safety, what I 
consider the third leg of the future of our economic 
prosperity. Schools and roads receive a lot of the funding, 
they also receive a lot of the attention. Public safety I 
believe is sometimes not focused on as a positive. I would like 
western North Carolina to go the further step rather than being 
in a defensive, to be in an aggressive, proactive posture where 
we can boast to other States and to other regions, listen, we 
have one of the safest communities--well, since we are in 
western North Carolina--in North Carolina and one of the safest 
States in the country.
    So this is my perspective on the total picture of drug 
trade and specifically here on meth. Thank you for inviting me 
and I look forward to answering your questions.
    Mr. Souder. Thank you very much.
    Mr. Shaw.

                    STATEMENT OF VAN W. SHAW

    Mr. Shaw. Thank you, Mr. Chairman, committee members.
    The State of North Carolina has seen the abuse of 
methamphetamine rise dramatically during the past 5 years. The 
number of methamphetamine laboratories, chemical and glassware 
seizures and related dump sites have nearly doubled every year 
from a total of 34 in 2001 to 322 in 2004. Through the hard 
work of the North Carolina Attorney General Roy Cooper, the 
North Carolina Department of Justice, State Bureau of 
Investigation, Drug Enforcement Administration and numerous 
local law enforcement agencies, we have begun to see a decrease 
in the number of laboratory seizures across the State.
    The enhancement of methamphetamine manufacturing laws and 
restrictions on the sale of pseudoephedrine have been 
instrumental in bringing about this decline. The trafficking of 
methamphetamine by Mexican national drug organizations still 
remains a significant problem, and trends suggest that it will 
only increase in an effort to fill the demand for 
methamphetamine that is no longer being produced domestically.
    The North Carolina Department of Justice, in conjunction 
with the State Bureau of Investigation and the Drug Enforcement 
Administration are formulating a Methamphetamine Trafficking 
Task Force that will seek to combat the flood of 
methamphetamine into western North Carolina. This task force 
will be modeled after the highly successful south and eastern 
Tennessee methamphetamine task force which has received Federal 
funding for its operation.
    The task force seeks to organize local, State and Federal 
law enforcement efforts and methamphetamine trafficking 
investigation to maximize productivity and the utilization of 
funding. This task force would provide overtime funding to 
local law enforcement agencies, training for law enforcement 
officers, public education programs and drug intelligence 
dissemination throughout the State. Efforts would also be 
coordinated in the area of enforcing pseudoephedrine laws to 
ensure the continued decline of methamphetamine laboratories. 
Federal funding of this task force would provide the financial 
foundation to ensure its success in slowing the flow of 
methamphetamine into North Carolina.
    Mr. Souder. Thank you very much.
    Sheriff Clark.
    [The prepared statement of Mr. Shaw follows:]
    [GRAPHIC] [TIFF OMITTED] T0526.017
    
                STATEMENT OF SHERIFF GARY CLARK

    Mr. Clark. Good morning, Mr. Chairman, distinguished 
Members of Congress, colleagues, guests and visitors. Welcome 
to Caldwell County.
    My name is Gary Clark, I am the sheriff of Caldwell County. 
Caldwell County is a semi-rural area consisting of a population 
of approximately 77,000 people. The primary industry in this 
county is furniture-based. However, with this industry quickly 
disappearing due to overseas manufacturing and the unemployment 
rate climbing, we are seeing a frightening increase in the 
production, sale, distribution and use of methamphetamine.
    Known as crystal meth or ice, methamphetamine is an illegal 
narcotic that can be easily manufactured using recipes found on 
the Internet, raw materials readily available from the corner 
pharmacy, convenience store or the local hardware store. It is 
manufactured in makeshift labs that can fit into the trunk of a 
car or a duffel bag. The ease of production and relatively low 
cost of raw materials make it an illegal product for an 
industry that is driven by one motive, which is greed. The 
manufacturing process itself raises other serious concerns in 
that it produces toxic byproducts that pose serious 
environmental concerns. The process itself is highly volatile. 
Explosion and fire are common with illegal meth labs. 
Manufacturing meth involves a variety of toxic and explosive 
chemicals, solvents, metals, salts and corrosives.
    The drug also poses a serious threat to children. Seventy-
five percent of meth lab seizures in Caldwell County occurred 
at sites where children live of play. One such example in our 
county was in fact a day care for preschool children.
    Meth attacks and breaks down all social barriers. We have 
found in Caldwell County that there is a direct correlation to 
meth and increases in violent and property crimes, computer 
crimes, identity theft and child neglect. I am sure that each 
person here today has their own personal horror story 
concerning meth addiction and abuse, but we are here for 
possible solutions.
    Limited manpower is the No. 1 issue facing law enforcement 
in Caldwell County in keeping up with the growing number of 
clandestine labs and dealers. If a lab is found in our county, 
we sometimes have to wait hours or days due to limited number 
of State cleanup teams with those teams being stretched so thin 
across western North Carolina counties.
    We have made great strides in combating this epidemic by 
stiffening laws and limiting accessibility of over-the-counter 
medications used for meth production. However, I believe that 
in order to effectively combat this problem, Federal, State and 
local law enforcement must come together to form task forces 
throughout the State. This would enable Caldwell County and 
other smaller jurisdictions with limited resources to address 
problems as they arise, as opposed to prioritizing problems 
based on severity.
    Although we have somewhat inhibited the production of meth 
in the States, we must continue to look for ways to stop its 
transportation into our country through more aggressive 
interdiction and maximum penalties for those responsible for 
this type of violation.
    The scope of drug awareness and resistance education must 
continue for our children and must be broadened into the high 
school levels where the greatest potential for abuse exists. 
Education, I believe, is the No. 1 weapon in addressing any 
problem.
    We should also address the abuser after rehabilitation. The 
limited number of centers designed to deal with this type of 
abuse and their easy accessibility are crucial in order to 
prevent a relapse of abuse.
    The solution to this epidemic, as with any other epidemic, 
comes with a price. In order for these things to come to 
fruition, our representatives will have to find ways to funnel 
resources to Federal, State and local municipalities and 
continue to take a proactive approach.
    I appreciate you, our representatives, taking the time to 
listen and I hope by informative sessions like this, we can 
help raise awareness about this issue and encourage all 
citizens to get involved in its prevention.
    Thank you and I look forward to your questions.
    Mr. Souder. Thank you.
    Sheriff Byers, good to see you again.
    [The prepared statement of Sheriff Clark follows:]
    [GRAPHIC] [TIFF OMITTED] T0526.018
    
              STATEMENT OF SHERIFF C. PHILIP BYERS

    Mr. Byers. Thank you, Mr. Chairman.
    The last time I was before this honorable committee and its 
members, you informed me I was sitting in a chair that Sammy 
Sosa had sat in a few days before when he was before your 
committee. I am not sure who has been in this one, but I am 
still honored to be before you today. Congressmen, 
Congresswoman, thank you so much for being here.
    On July 26, 2005, I had the privilege of addressing the 
members of this Subcommittee on Criminal Justice, Drug Policy, 
and Human Resources. During the testimony, I made several 
recommendations to include: Restricting the sale of 
pseudoephedrine products nationally; tightening the Mexican 
border to help prevent traffickers from entering the United 
States; longer prison sentences for traffickers and 
methamphetamine producers and anyone who involved children in 
the trade or allowed children to reside in a home used for meth 
production; address pseudoephedrine black market, Canada and 
China being two of those; funding for interstate drug and 
criminal interdiction teams; and continue to prosecute 
methamphetamine cases in Federal court, due to the longer 
sentences.
    We also discussed the fact that working with mental health 
care providers would be necessary for a recovery and treatment 
plan for those who were addicted.
    With the passing of the Patriot Act legislation earlier 
this year, the Combat Methamphetamine Epidemic Act of 2005 
became law and provided the following, or will provide the 
following as of October: Restricts the sale of medicines 
containing pseudoephedrine; creates a DEA classification for 
meth precursors; provides $99 million a year for the next 5 
years for Meth Hot Spots Program which will train local and 
State law enforcement and also assist in investigating and 
locking up meth offenders; requires new reporting and 
certification procedures for the exporting and importing of 
pseudoephedrine products into this country; provides $20 
million in funding in 2006 and 2007 for the drug endangered 
children response teams to promote work with Federal, State and 
local agencies; requires reports to Congress on designations of 
byproducts of meth labs; and enhances criminal penalties for 
meth production and trafficking.
    As a result of the passing of the Combat Methamphetamine 
Epidemic Act of 2005 and the North Carolina Methamphetamine Lab 
Prevention Act of 2005, we have already witnessed a reduction 
in meth labs in western North Carolina. During the month of 
March 2006, 14 labs were discovered in North Carolina, compared 
to 40 in March 2005. And 33 labs in March 2004. First quarter 
lab seizures for North Carolina compares as follows: 2006, 73 
labs for the first 3 months of the year; 2005, we had 108; 
2004, for the same period of time, 81 labs.
    Methamphetamine lab responses in western North Carolina in 
2006 through March 31st by county: Unfortunately Rutherford 
reports 14; McDowell, 12; Madison, 2; Haywood, 2; Watauga, 1; 
Mitchell and Jackson both, 1 lab.
    We are beginning to experience limited success in fighting 
local meth labs, but the overall methamphetamine trafficking 
and addiction problem continues to grow. In Rutherford County, 
we have fewer meth labs, but increased methamphetamine 
trafficking and addiction. The majority of methamphetamine, or 
ice if you will, that we seize today is smuggled into this 
country from Mexico. The methamphetamine or ice that comes from 
Mexican superlabs is very potent and leads our users to a new 
level of addiction. As we continue to fight methamphetamine and 
the epidemic in this country, I once again wish to share my 
suggestions and recommendations to this committee.
    First, we must tighten and control the Mexican border and 
reduce the amount of ice coming into this country from Mexico.
    Second, we must continue to work with our Federal 
prosecutors to prosecute meth manufacturers and trafficking 
cases as the sentences are much longer.
    We must continue funding interstate drug and criminal 
interdiction teams.
    Work and provide additional funding for mental health care 
providers to develop a solid treatment and recovery plan. That 
is necessary.
    And we also in North Carolina, along with John Emerson and 
Van Shaw, who I must say have been tremendous, without their 
help, we would not have survived the meth epidemic in 
Rutherford County. I thank them both here before this 
committee. We are working to get funds for the North Carolina 
Statewide Methamphetamine Task Force.
    What we are seeing, if you look on a map, there are still a 
lot of counties in North Carolina, basically half the counties, 
with zero meth labs. We want it to stay that way. But if we do 
not work with those counties to let them know what is coming, 
then they will be much like we were in western North Carolina 
several years ago. We were not prepared, and they will not be 
prepared. So we hope we can get funding for that statewide task 
force.
    This information is based on my experience in dealing with 
meth labs and struggles that I have witnessed. I hope a small 
portion of this information will help to develop a better 
system of fighting what continues to negatively impact local 
governments in western North Carolina.
    I thank you for the work that you have done and continue to 
do, and will be happy to address any questions.
    Mr. Souder. Thank you.
    Ms. Vasquez, you are batting cleanup today. Thank you for 
being with us and being willing to share your testimony and you 
will have as much time as you need.
    [The prepared statement of Sheriff Byers follows:]

    [GRAPHIC] [TIFF OMITTED] T0526.019
    
    [GRAPHIC] [TIFF OMITTED] T0526.020
    
                STATEMENT OF LYNNE STARR-VASQUEZ

    Ms. Vasquez. I think I am somewhat the opposition here. 
Thank you for having me.
    I am the mother of a 25-year-old sentenced on January 5th 
in Federal court--thank you, Jesus, for Federal court--for 
methamphetamine use, abuse and manufacture.
    If I had anything to say that would be most important to me 
and my family and what we have experienced over the past 3, 
3\1/2\ years, it would be time. Time has been a real element 
for us.
    It was a year and a half after I turned my son in--I turned 
him in myself, and it was a year and a half after I turned him 
in before he got on the hot list that I could see, where they 
really pressured him. I have not done this without--I said I 
was going to be OK. I have not done this alone and I had the 
best backup that I could possibly have. I fought for my 
grandbaby, I fought for him over a year before I got him. I 
have no idea what he has been in, I do not know what he has 
seen, I do not know if he has been contaminated. But I got him, 
took me a long time to get him.
    It is hard when you watch your child die, and that is what 
I was doing. And if I had steps to make over again, I would 
probably do the same thing that I did before. I called and I 
called and probably a lot at the Sheriff's Department think I 
am just crazy, you know, because I called them so much. And 
after I got that baby, in the morning, when I made sure he had 
his security blanket to go to school, I made sure I had my 
security blanket, which was the business card of this man that 
sits to the right of me. Never one time have I called him that 
he has not called me back and I really appreciate that--I 
really do.
    I really appreciate getting on a first name basis with the 
narcotics agents in Rutherford County. I wanted them to do it 
quicker because I was losing him, and for every day that I went 
and I turned the key, I did not know if that was going to be 
the day that he was not alive. He got down at one time to 139 
pounds. My son is a very handsome man, normal weight maybe 222, 
something like that. A long time to get him where he needed to 
be, a long time for them to do their job. Time is important 
here.
    I say time, time over and over again. They indicted him 
into Federal court on December 17th, and attached to my papers, 
I have a picture of him 1 month before he was indicted. On the 
night that Detective Will Sisk, December 16th, he met me at the 
courthouse and my son turned himself in. I had not seen him in 
awhile, just talked to him on the phone, and I did not realize 
that his body was gone, he was deteriorating. I do not know how 
much he weighed, but his skeleton was all I could feel when he 
went to kiss me goodbye.
    These people have stuck with me through all of this and 
when I called and I cried and asked for help, they were there. 
But they could not move up the time. They processed him and 
they put him under house arrest December 17th. They sent me 
home from Federal court without a support system. There was no 
counseling for him, there was nowhere for me to take him.
    I have laid and held my son and I have watched him cry and 
beg, I have watched him have seizures, I have called the 
hospital and they told me he is playing with you, it has been 
too long. I have taken him to as many as three hospitals in a 
night and when I finally found somebody, all the way down in 
Kings Mountain, they said he needed just something for his 
nerves and let him sleep. He had an allergic reaction and by 
the time I got back into Rutherford County, he had stopped 
breathing. Back into Cleveland County and they adrenalined him 
and I thought I was losing him.
    I went through all these things for almost 4 months and 
then it started to lift off and he fought to be clean, he 
really fought to be clean. But he did not fight long and hard 
enough because it had him.
    Over and over, I talk about Will Sisk because Rutherford 
County is a big county, but he got personal with me and I know 
he had a job and I know he has got a lot of jobs, but I would 
call Will and I would tell him, Will, Chad is using again, put 
the heat on him and Will would show up. He would talk to him, 
he would let him know I am here, he befriended Chad. And I 
think with the help of some of these things, I did not lose him 
all the way.
    Struggling to stay clean is hard. The Federal court set him 
up with counseling agencies, counseling agencies turned down 
the contracts. He would go to another counseling agency, they 
would keep him in a week or two, they turned down the contract. 
They would withdraw contracts, one place to another to another 
and time goes on.
    He got straight through the summer last year. He had a baby 
born and I thought that he was going to be OK after she was 
born because methamphetamine took everything from my son. He 
lost his home, his car, his wife, his children. And he had no 
reason--he had no reason to keep going and he had a little girl 
July last year. And he had a reason to fight for the first time 
in almost 4 years. And she passed away on October 29th. And my 
son fell harder than he had ever fell before and I was back to 
the phone calls.
    These people have stood by me and they have helped me. But 
they did not do it quick enough. The law process is not quick 
enough. Getting my children, my grandbabies out of danger was 
not quick enough. I needed them home with me when their mom and 
dad first started using. I did not get it, I had to fight. 
There was nowhere for me to go, when I had used all money to 
take care of legal expenses and bail him out of jail, and that 
is what a mom does to start with. Unfortunately some of them do 
it continuously.
    I did not have the money to go get an attorney to get my 
grandchildren. I did not have the money. I finally found an 
attorney in Rutherford County and I owe that man today, but he 
got my kids. DSS did not have a part in it. Not even when my 
son and his wife sat in the Rutherford County jail for a full 
blown meth lab in their home, guilt or innocence is irrelevant 
when they sit in the county jail accused, DSS still would not 
help me.
    We need help. We need to target--I feel we need to target 
people who have not used, because people that have used, they 
know. We need to talk to mothers and tell them the hardest 
thing that you will ever do in your life is go on a back street 
somewhere behind a church and talk to the SBI and tell them 
come and get your child--it is hard, but we have a choice, we 
have a choice. If we turn our back, we are going to watch them 
die. We turn them in and maybe they will have a chance to live. 
And I know what the percentage rates of recovery are.
    I thank these people here for being with me, for sticking 
with me for all those calls. It has been a long, hard road--a 
long road. He is in a U.S. Penitentiary in Atlanta, GA today. I 
have not talked to him in almost 3 weeks. You know, there is 
something different about me and my son, bad, good or 
indifferent, he tells his momma what is going on. This is why 
Detective Sisk helped me. And I remember always, I remember. Go 
get your baby, he will come home.
    They have cut me off from him, and every day a part of me 
is gone, every day. Every day a part of him is gone. Thirty 
days does not seem like a long time, it is a real long time to 
an addict. It is a real long time when you have lost everything 
that you had and then you are losing everything else. It is a 
real long time.
    So anything and everything I could tell you would come back 
to the same thing. It is time. We need to change the time 
elements, time is what we are working with from the beginning 
to the end. I almost lost my son, but I did not.
    I am a student at the University of South Carolina and for 
almost 2 years, I pull up into that parking lot and I step out 
of my car and I say OK, God, you got it, because I cannot carry 
this no more. And through the grace of God and these people 
that are here today, they got him and he is alive.
    And that is all I have to say.
    [The prepared statement of Ms. Vasquez follows:]

    [GRAPHIC] [TIFF OMITTED] T0526.021
    
    [GRAPHIC] [TIFF OMITTED] T0526.022
    
    [GRAPHIC] [TIFF OMITTED] T0526.023
    
    [GRAPHIC] [TIFF OMITTED] T0526.024
    
    [GRAPHIC] [TIFF OMITTED] T0526.025
    
    [GRAPHIC] [TIFF OMITTED] T0526.026
    
    [GRAPHIC] [TIFF OMITTED] T0526.027
    
    [GRAPHIC] [TIFF OMITTED] T0526.028
    
    [GRAPHIC] [TIFF OMITTED] T0526.029
    
    [GRAPHIC] [TIFF OMITTED] T0526.030
    
    [GRAPHIC] [TIFF OMITTED] T0526.031
    
    [GRAPHIC] [TIFF OMITTED] T0526.032
    
    [GRAPHIC] [TIFF OMITTED] T0526.033
    
    Mr. Souder. Thank you all for your testimony and for all 
the testimony. It is really hard when it is that personal, but 
we appreciate it very much.
    Mr. Gaither, if I could followup on one of the points you 
made relating to time, and that is getting the lab reports 
back. Mr. Shaw, maybe you could address this too.
    Who do you send the lab reports to in North Carolina? What 
is the process that it goes through?
    Mr. Gaither. Law enforcement--I am sorry, can you hear me?
    Mr. Souder. Yes.
    Mr. Gaither. Gary Clark, law enforcement, collects the 
items, sends them to the State Bureau of Investigation and they 
send the results back to myself and also a copy to the law 
enforcement agency making the arrest.
    Mr. Souder. And is this--by the way, this is true in every 
State, it is not just North Carolina that is having this 
problem. I do not mean to imply it is just North Carolina, but 
this is not something we traditionally talk about and yet it is 
happening. In my home State, they are saying that they will 
release, and often they will be up for their third meth lab by 
the time they are prosecuted for the first meth lab.
    Is meth different than other drugs? Does it take longer 
than other drugs? Or is this a problem regardless of what you 
are prosecuting somebody for?
    Mr. Gaither. Let me defer that to the agent, if you do not 
mind, as far as the difference that the lab might have in 
assessing one drug over the other.
    Mr. Shaw. Well, exactly as you stated, the backlog has 
existed in the laboratory for a number of years, much like it 
does in other States. The problem is attrition, the number of 
cases that are coming in and continue to increase.
    What has compounded this is that the processing of a 
methamphetamine lab manufacturing case takes approximate 50 to 
60 hours of analysis in the laboratory. So that agent is doing 
that analysis for practically 1 whole week plus overtime. So 
you can see, as those numbers increase, it is going to decrease 
the number of cocaine cases, meth cases, trafficking cases, 
everything else down the line because they are now doing 
something that 4 and 5 years ago was very rare for us to do.
    Mr. Souder. Could you explain why that takes so much longer 
in a meth case?
    Mr. Shaw. When you go to a methamphetamine laboratory, you 
are taking samples of all the unknown liquids, violator liquids 
that are present and part of the manufacturing process. And 
because most of those are in 2-liter bottles, mason jars, 
containers that they are not supposed to be in, you cannot just 
look at it and say I know exactly what that is. So the chemist 
actually draws samples. Those samples are then transported back 
to the laboratory and analysis is done on each and every sample 
to tell what it is, what part of the manufacturing process it 
is and also, obviously, the presence of methamphetamine and 
what State it is in. So there is a lot of analysis and 
identification that goes on to make the manufacturing case.
    It is further complicated by the fact that we take each and 
every drug laboratory that we process and we process it to the 
Federal prosecution standard with theoretical yields, 
quantitative and qualitative analysis, which is used in Federal 
court that may or may not be used in State court. A lot of 
times we do not know whether the case is going to State or 
Federal court when we are processing the scene. So we do add a 
little bit of time onto that but it has paid great dividends 
when it comes down to prosecution time and the Federal 
prosecutor wants to go back and pick up multiple cases. And it 
has prevented us from having to go back and redo those cases.
    So it has caused a significant backlog in our laboratory in 
addition to what already existed.
    Mr. Souder. Is this because they are household chemicals 
that would be legal unless they are used in certain mixes and 
combinations?
    Mr. Shaw. Exactly. And just having that identification, and 
not only that, what type of role that household chemical plays 
in the reaction to get the manufacturing because in almost 
every trial, you are educating that jury and the more 
information that can be provided to have someone understand why 
hydrogen peroxide, which is an everyday item we all have, is a 
component of meth manufacturing and having that in conjunction 
with other things is critical to the case.
    Mr. Souder. And does this become even more difficult--you 
have a law in North Carolina I presume, based on some of the 
prosecutions, that you do not actually have to find the meth at 
the place, it can be a prospective lab or a retrospective lab, 
which means that you would have to establish different lines of 
criminal evidence than if you had the cocaine and meth there.
    Mr. Shaw. Right, we do have the manufacturing charge as 
well as the possession charge and we are prosecuting cases when 
there is not meth on the table, but there are the elements 
there that suggest manufacturing as well as we have a precursor 
State law, that if they just possess a few chemicals but we 
know they are associated with it.
    Mr. Souder. What in the legal sense could we do that would 
shorten the evidential proof process and still make it stand up 
in court? Because this is an incredible problem, if it is 50 
hours compared to just a little. There is not enough money in 
the United States as this problem expands to try to address 
this problem, yet we are putting the meth people right back out 
on the street because we do not have the evidential chain. Is 
there anything that you could see that could establish a 
shortening of that process?
    Mr. Shaw. Well, I think one of the things that is happening 
is that we are seeing more and more prosecution, both at State 
and Federal level. It is like any new problem. This one is so 
scientific in nature, quite frankly, many of the assistants and 
district attorneys, when their first case came up, they were 
not sure how to try it. And understandably so, much like law 
enforcement was not sure how to investigate it.
    There has been a learning curve, and we are even doing that 
in some of our analysis in what we can shorten up and what we 
cannot. I am not sure procedurally how we can alter that 
process to bring a good case into court and not lose it but 
also try and save some time, other than continue to train 
people, you know, continue to offer things that would enhance 
everyone's understanding and hopefully expedite the case 
through the system.
    Mr. Souder. I want to make sure I understood something you 
said there. Does it take as long today to develop that as it 
did when you first got exposed to these cases? In other words, 
does experience in fact reduce the amount of time?
    Mr. Shaw. Yes, it does; it does in a number of areas. When 
we were responding initially to 100 labs a year, we and 
ourselves as an agency were in a learning process and we were 
spending 8-10 hours at a scene. Today, we typically process a 
methamphetamine lab in anywhere from 2 to 4 hours. We have 
simply gotten better at it. So we have shortened time on the 
scene, time tying up local officers, firefighters, EMS. The 
same thing has happened in our laboratory in that you become 
more efficient, you do not take as many samples because you do 
not need that many samples in court. And so that is my point, 
in that this has been sort of an evolution and we have seen 
some shortening of those timeframes.
    Mr. Souder. Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman.
    I would like to start actually with a few comments that 
both Sheriff Byers and District Attorney Gaither both 
mentioned, and that has to do with illegal immigration. You 
both mentioned that in some way, shape or form. I want to ask 
how has the problem of illegal immigration coincided with this 
problem of this meth epidemic that we are facing?
    Mr. Gaither. Congressman, let me first just address the 
issue of illegal immigration in the broader sense as far as the 
courts are concerned. Then law enforcement can address it more 
as far as they see at their level, the first response level.
    The frustration at the prosecution level is to see those 
who are illegal immigrants come into our system with a DWI or 
various other types of charges and be put on probation. And our 
hands are tied, as State officers, from any--there is nothing 
that we can do. We are precluded from the enforcement of those 
laws of the Constitution. Recently Charlotte-Mecklenburg I 
believe has sworn in 10 of its sheriffs to operate along with 
ICE in assisting them with the illegal immigration problem.
    This is a great deal of frustration for us and we would 
really like to see something come about in the next weeks. Of 
course, it is the No. 1 issue on everybody's minds across the 
country right now, we are seeing it in the news.
    As far as being able to pick out one group or one element 
in society that is more likely to contribute to this problem, I 
cannot really do that. As the chart shows over here, 2001-2002 
and then the spike is coming up. We are just seeing this in the 
courts, the spike in 2003 and 2004 is just hitting the courts 
now. We have not yet seen the spike in 2005 hit our court 
system yet.
    But just in a general sense, when you are dealing with the 
issue of illegal immigration, the frustration level is through 
the roof in the courts, to see folks come in who are illegal 
immigrants, who are found guilty of a crime and then they are 
put on probation. To me, a person who is an illegal immigrant 
and comes in our courts should never be given the option of 
probation.
    Mr. McHenry. Thank you.
    Sheriff Byers.
    Mr. Byers. Congressman, illegal immigration is on the rise 
in Rutherford County, like most every other county in North 
Carolina and in this country.
    We had a homicide last month that involved two illegals and 
when we searched the homes or the mobile homes, we found half a 
dozen illegal Mexican identification cards for both the victim 
and the defendant.
    We are dealing with it now. Sheriff Clark, I know he deals 
with this and it is going to be an ever-increasing problem 
unless we do something at the borders. And when we have 
illegals, that is the easiest way to get the ice, if you will, 
from Mexico to rural Rutherford County, NC.
    Mr. McHenry. Sheriff Clark, would you like to comment on 
this issue?
    Mr. Clark. Certainly, thank you, Congressman.
    What we happen to see in Caldwell County, being rural and a 
lot of tree growers in our area, it attracts a lot of Mexicans 
here and others of Hispanic background. Which once again, I 
concur with Sheriff Byers, that gives a direct line to those 
individuals in Mexico responsible for bringing dramatic amounts 
of meth particularly to this surrounding area. And we continue 
to see that, even though we continue to crack down on the 
clandestine labs here in Caldwell and Rutherford, Burke, 
Catawba. We are going to continue to see that influx of meth 
coming from that direct pipeline from Mexico.
    I think another thing we are going to have to strongly look 
at is the trucking industry, because even though this is making 
its way from Mexico to Arizona, it has still got to have a 
direct way across the United States into western North 
Carolina. And we are finding more and more of that is being 
brought in here through independent truckers and through 
trucking companies. So I think we have to take a closer look at 
that. I think that is also another direct pipeline for most of 
the illegals that make their way to western North Carolina.
    Mr. McHenry. One more thing. Just a couple of days ago, 
here is a quote from the newspaper here in, the Lenoir News 
Topic, ``Mobile Meth Lab Found.'' Sheriff Clark, I know you are 
the commander, you take personal command of the ice unit here, 
to take on this problem. But here is a duffel bag found on the 
side of a road that is a mobile meth lab.
    Sheriff Clark, what ways are you trying to tackle this? 
Because here you have really a toxic waste site that someone 
happened to put on the side of the road. Can you comment on 
that?
    Mr. Clark. Well, meth dealers and manufacturers are 
becoming more and more street smart to what our methods are of 
detecting them. And to have something permanently set up I 
think makes them more susceptible to criminal violations, so we 
are finding more and more of these individuals have make-shift 
labs, as I said, as I testified earlier, whether it be in the 
trunk of an automobile or whether it be in a duffel bag, where 
they can move it very quickly, where they can disassemble it or 
assemble it very quickly. At the same time, I think the threat 
level and also the potential hazardous situation goes up with 
that haphazard kind of meth production. But we are seeing more 
and more of that in Caldwell County.
    Mr. McHenry. Sheriff Byers, can you comment on Rutherford 
County?
    Mr. Byers. We are seeing, again, Congressman, more illegals 
bringing the meth. Our meth lab numbers are going to be down 
this year and that is a wonderful, wonderful surprise. But it 
is from a lot of hard work, a lot of hard work, and we have 
four of our agents here today. I will not point them out 
because they are kind of camera shy, so I will just say that 
four of our agents----
    Mr. Souder. Are they the ones in the red hats?
    Mr. Byers. Yes, sir, Mr. Chairman, it would be the ones 
with the red hats. [Laughter.]
    But the problem still exists. And we have more illegals 
coming into Rutherford County, and I will not get into the 
immigration argument today, I know that you folks have had 
enough of that or seem to have had enough on it, and sent it to 
the Senate. But anyway, we continue to see it and that pipeline 
will continue to be there. What we are seeing, I think Special 
Agent Emerson mentioned 80 to 90 percent of the meth we are 
seeing now, the ice, is coming from Mexico.
    So we can win the war, the battle, if you will, on meth 
labs. We are not dealing with chemists, we are not dealing--in 
Rutherford County, we are not dealing with people who passed 
chemistry in high school. They are not taking $250 worth of 
ingredients and making $1,000 worth of product, therefore 
making profit. They are taking $250 worth of ingredients and 
making $200 worth of meth. So they are addicts, they are not 
selling it on the street, they are addicts, they are making it 
and giving it away.
    But what we are seeing now coming from Mexico is not near 
as toxic. Now what our guys were making in Rutherford County 
and continue to make, is very toxic. See a lot of people 
showing up at the hospital with liver and kidney failure, but 
it was not very potent, so they had to make it every day. We 
have arrested people, the agents here today, have arrested 
people, jail at 12, out on bond by 2 and they would follow them 
to buy the ingredients to make it again the same day. That is 
an addict. That is not a businessman, it is a pure addict.
    So that is what we have been dealing with. But the ice is 
so potent that the mental health--it is going to be tremendous 
if mental health can keep up with the potency. Not near as 
toxic, so we may not see quite as many healthcare problems, 
kidney and liver failure, but we are going to see a tremendous 
amount of addiction, because the ice is truly potent and we 
have more use in Rutherford County today than we did a year ago 
or even 2 years ago.
    Crime in Rutherford County is down 16 percent, I am proud 
to say, crime in 2005 is down 16 percent. The one exception 
there is domestic violence. And what is feeding domestic 
violence? Meth.
    So to answer your question, Congressman, I think I went too 
long and went too broad, but the bottom line is yes, the 
problem we are dealing with now is the ice and I want to 
personally thank you before this committee and this group, 
yourself and Congressman Taylor were kind enough last year when 
I sent you the concern and the problem that we had, to find the 
funding to let us start a drug interdiction team that will be 
on line hopefully by mid-June. Monies are there and we thank 
you for that. So we are going to try to fight to stop the ice, 
which is coming from Atlanta, even Charlotte occasionally, but 
usually Atlanta, through our highways and spreading across 
western North Carolina.
    So thank you for that and I highly encourage those other 
sheriffs here today to help us in that fight, because we have 
to get it off the streets before it gets to the homes and to 
the individuals or we are going to have--mental health will 
never keep up with the addiction that we are about to have.
    Mr. McHenry. Thank you, Sheriff Byers. Thank you, Mr. 
Chairman. I do have additional questions, but I will come to 
that in due course.
    Mr. Souder. Ms. Foxx.
    Ms. Foxx. I have one quick question for Mr. Shaw. I think 
all of us have heard horror stories about cases being thrown 
out of court because every ``i'' was not dotted, every ``t'' 
was not crossed, that kind of thing. We all hate to see that on 
procedural matters. But you pointed out the increased amount of 
time it takes to adhere to the Federal regulations to take 
something to Federal court.
    Is there anything that is being required for Federal court 
that does not have to be required? And if so, have you shared 
that with the folks, so that if there is something we can do--I 
do not want to damage any case, but is there anything we could 
eliminate that is not absolutely necessary?
    Mr. Shaw. Well, the short answer is not that I am aware of. 
We did meet with the U.S. Attorney's Office and the other 
assistants and talked about what was needed. One of the 
advantages with the Federal prosecution is the theoretical 
yield of what the capacity--what it would have made, if it had 
not made anything. What it did make based on historical 
aspects. So those are good things. They require a little bit 
more lab analysis, but it is a much broader approach to 
prosecuting the meth manufacturer. So it is a very slippery 
slope you get on in suggesting doing away with something or 
shortening something up because the broadness of that 
jurisdiction with Federal prosecutors is what has made it so 
successful as well.
    Ms. Foxx. Thank you.
    Mr. Souder. Mr. Emerson, could you come forward for a 
second? I wanted to ask you--I think probably for recording 
purposes, as long as you can hear him, we will not have him sit 
down.
    When you get the crystal meth type cases that are coming 
through, are those the same organizations that are smuggling 
the marijuana and the cocaine?
    Mr. Emerson. Generally, yes.
    Mr. Souder. So there is not any kind of crystal meth 
channel, they are basically selling whatever the market is.
    Mr. Emerson. Generally, that is the case. Now I am sure 
there are individual cases, we have seen them where we only got 
crystal meth and that is what we are investigating that group 
for. But as a whole, we see Mexican organizations are moving 
all three of those products.
    Mr. Souder. Have you seen them shopping crystal meth, 
packaging it with other drugs?
    Mr. Emerson. We have seen it transported together.
    Mr. Souder. I should say, are they cutting the price to get 
initial addicts. Basically as they see the mom and pop labs 
decline, they may have been selling marijuana or other drugs, 
but they will sell the crystal meth very cheaply or give it 
away to try to develop a market?
    Mr. Emerson. I do not think we have seen that specifically, 
no.
    Mr. Souder. And one other question, on the marijuana that 
you are seeing, have you seen any of the hydroponic, large, 
coming in from Canada in particular, any of the seeds being 
bought over the Internet?
    Mr. Emerson. Yes, we have. Mostly through the Asian 
traffickers. Operation Candy Box, which was taken down about 2 
years ago now, we had Asian traffickers bringing BC-Bud down 
from Canada and we have seen some of those cases recently, but 
not nearly the amount of cases that we see with Mexican 
marijuana.
    Mr. Souder. OK, thanks.
    For those who are not aware, people still think we are 
dealing with what we call in Indiana ditch weed or 1960's 
marijuana, when the THC content is 20 to 40, the highest we 
have heard in any area is 48, which basically is behaving like 
meth or crack on the brain. And this pro-marijuana stuff that 
is going around the country is just awful right now, because 
they are packaging, and particularly this so-called BC-Bud in 
New England, it is coming down from Quebec as Quebec Gold and 
sometimes in the middle you get it mixed as BC Gold in the 
midwest. But they are also selling it on the Internet and you 
have to really watch for the home grown. You usually can tell 
by the amount of electricity they are using.
    But I wanted to then get into two other things to watch 
for. One is if you found a mobile lab, that is a scary trend 
because I believe in New Orleans, we saw a little bit in 
motels; in Hawaii, they have had to implement, in parts of 
Honolulu, an apartment fee to fumigate the apartments because 
it is left over and the kids move into the apartment and can 
develop all sorts of conditions based on these mobile labs 
moving from apartment to apartment or motel room to motel room. 
In other words, you can be traveling on a trip and get sick or 
your kids can get sick because somebody had one of these mobile 
labs moving there. And it is a--really kind of makes it harder 
in our pseudoephedrine regulation if they are moving around 
like that.
    We were actually doing a hearing in Wilmington, OH, between 
Dayton and Cincinnati, and the problem was viewed as a rural 
problem, but we had the TV there from both Dayton and 
Cincinnati, all three networks from each one. And a story came 
in from Dayton, they had never had any home labs in the city of 
Dayton prior to that day, and they took down what they thought 
was one meth lab and it turned out to be a block. Part of the 
reason meth labs are not found in cities is the smell, and so 
that is why you see the problem in the United States has tended 
to be rural Hawaii, eastern Oregon where there are national 
forests, that is why you are going to see it in the mountainous 
region of east Tennessee and western North Carolina before you 
see it in the urban areas because there are places to go out 
where you are in less populated areas. So Arkansas, in the 
Ozark mountain area, in Indiana, the biggest area is the 
Hoosier National Forest area. It is going to tend to be in the 
more rural areas.
    But as they move into urban, part of their challenge, even 
in a small town, is the smell because people can start to smell 
it. They bought a string of seven houses and it was buried in 
the center, so their neighbors could not smell it.
    None of you have seen a combination in a town yet of 
multiple houses, is that correct, you have not seen that in 
North Carolina?
    Mr. Clark. We have seen it in hotel rooms where they will 
string two, three hotel rooms together and do their business 
out of there and then once the supply is depleted, then they 
will go back home or wherever it is that they originally 
manufactured.
    Mr. Souder. No particular chain? [Laughter.]
    Mr. Clark. No particular chain.
    Mr. Souder. That is a scary concept, that is the first time 
I have heard of a string of motel rooms, because that would 
probably be a similar type of trying to disguise the smell.
    Mr. Clark. And at the same time, most of these individuals 
are smart enough that they check in under a pseudo name, so if 
they did have to run from law enforcement, you do not really 
have any other identification on them. These dealers and users 
and abusers are becoming smarter and smarter to our techniques. 
They read just like we do and they watch sessions like this 
just as we do. So they are gaining intelligence from sessions 
like we are having today, they are gaining intelligence on us 
in law enforcement and lawmakers.
    Mr. Souder. From what we have been able to get from 
testimony from meth addicts themselves, is that the one thing 
that is an advantage that we have in law enforcement is the 
drug makes them more paranoid and they are more likely to make 
a mistake.
    One of the problems in the pseudoephedrine law is that we 
have these log books, but one of the charges is moving from 
place to place. Do you have a plan, since you have only done 
this since January 15th, but do you also have a Meth Watch 
Program that works with the local pharmacists, the retail 
stores, to watch how a person is behaving? For example, without 
saying the name of the chains, there are some chains that look 
for certain types of purses or cases that come in, they know 
there is nearly 100 percent chance that a person coming in with 
that type of case is going to be getting a quantity or 
shoplifting a quantity.
    Mr. Shaw. We do have the Meth Watch Program in some 
counties in the State. We have also attempted to contact 
different retail associations. Unfortunately, since the passing 
of our pseudoephedrine legislation, there is not quite as much 
cooperation with the retail side, just simply because that 
removed a substantial amount of products from grocery store 
shelves and convenience store shelves and other types of retail 
establishments. So many view it as the solution to the problem. 
Of course, we know that is not going to be the case, that we 
are still going to continue to have a problem.
    But the meth watch program is out there, it is flourishing 
in some counties. Some store chains are very cooperative, as 
you mentioned. But it has been met with mixed success. And that 
is why we continue to push the pseudoephedrine laws, because we 
found that voluntary compliance just simply did not get the job 
done.
    Mr. Souder. Do you have a sign-in list?
    Mr. Shaw. Yes, we do, we have a log, but there is an 
inherent problem with that and it goes back to funding again. 
With the signing of the log, you can still go from pharmacy to 
pharmacy and those pharmacies, unless they are the same chain 
and not necessarily even if they are, cannot communicate. There 
is no real time data base that says I was just at CVS buying it 
and now I am at Walgreen's buying it, so that the Walgreen 
clerk or pharmacist can go, I cannot sell it to you, you just 
purchased it 30 minutes ago.
    So what we are finding, as Sheriff Byers pointed out, is so 
many of these addict cooks are simply buying two boxes here, 
two boxes here, two boxes here. That is all they have to do.
    Mr. Souder. The Indiana State Police, because we have the 
fifth highest number, I think last year we actually moved to 
fourth, we are down roughly 50 percent 6 months into this law. 
It is moving to crystal meth like we knew it would.
    But two other things we are watching, because in the first 
3 months, the log thing was intimidation, then all of a sudden 
they realized that hey, it is not on the computer. But the Meth 
Watch Program, some are tips, because if you watch a person, 
and the person is alert as a clerk when they sign in, they are 
likely to be more nervous if it is not for a cold. And watching 
that, calling in, then they do a--occasionally now they are 
doing a sweep of the log lists and those tips. What you need 
are just an occasional high profile person, we got two in the 
last couple of weeks doing this, jumping from log to log. And 
all it takes, because of the nature of the group, if they 
realize there is a potential chance of just being found guilty 
of now another violation, which is in the logs, you are finding 
them buying the materials and violating another law, has worked 
as some deterrence. But if law enforcement does not 
occasionally sweep those log books to see whether a name is 
appearing in multiple places, because it will be there, it is 
just a pain in the neck process to try to sort through, 
particularly unless the clerks are helping tip off. But a 
couple of high profile nailings like that can help give some 
teeth to that.
    The difficulty of--I was heavily immersed in the 
negotiations of whether it should have to be sold at a pharmacy 
or not. But for example, in New York City, they do not have a 
single meth case yet and anybody who has been to New York City, 
they have little mini-markets all over the place and you would 
not be able to get cold or headache medicine in New York City 
if we said it had to be sold at a pharmacy and yet, they have 
no meth cases. But what happens is if you find one State does 
not have the law, people move to the other law. So it has been 
a very delicate balance.
    And while Target, Wal-mart, big companies, can computerize 
this, smaller grocery stores and particularly in rural areas, 
almost every rural area in Indiana and I am sure it is true 
here too, are fighting to keep a pharmacy or a grocery store, 
they are barely making enough money to exist already as the 
chains hammer them from the regional areas. And this is a very 
difficult tradeoff and we have to be as creative as we can in 
trying to tackle the variations from this.
    Sheriff Byers, did you have a comment?
    Mr. Byers. I would agree. And of course, we border the 
great State of South Carolina, who is now addressing the 
pseudoephedrine law, if you will. So our addicts are just 
driving 15 minutes and are able to purchase the products they 
need. But it has helped some in our county, we see that. I 
probably get half a dozen calls a week from pharmacists who say 
someone came in, they have been in twice this week trying to 
purchase or they were nervous or these things. So we do get a 
lot of tips, even though we do not have the data base that we 
desperately need. But until South Carolina steps forward or 
until October of this year when it is national, our folks are 
going to go to South Carolina, 15 minutes away, and purchase 
the things.
    And again, a lot of our people do not purchase. The one 
thing that has helped us is moving the product behind the 
counter. A lot of addicts were shoplifting because they are 
destitute, they did not have any money. So they were going in 
and had two options, they were either stealing weed eaters, 
chainsaws, anything they could get and pawn or sell for a 
minimal amount of money to purchase, or they were going in in 
groups of five, they would go to one pharmacy and shoplift 
three or four boxes, then they would go to the next pharmacy 
and another would go in and shoplift. And of course, they were 
going to what is called mom and pop stores, but to our general 
stores, if you will, and we have a lot in Rutherford County, 
and they were shoplifting.
    We did have the opportunity in Rutherford County to 
prosecute a couple of store owners who had set up their own 
little markets and had all the products you needed to 
manufacture meth on one shelf. And thanks to John Emerson, Van 
and the folks at DEA, we were able to federally prosecute a 
couple of store owners for intentionally selling the products 
all off one shelf that were necessary to manufacture meth. So 
we got that problem stopped quickly.
    Mr. Souder. Any signs of buying off the Internet at this 
point?
    Mr. Byers. Not in Rutherford County. Some of the other 
counties, I know Wilkes County had a couple of cases where 
pseudoephedrine products, bulk amounts, were purchased from 
Canada and came into the county. So we have not witnessed that, 
but yes, it has been going on.
    Mr. Souder. Oregon has seen a rise. It is something to 
watch. The myth is that these addicts are not going to have the 
Internet, but almost all of them got the recipe off the 
Internet, so they can use the Internet. The question is at what 
point does it become disorganized and not purchase. Also, any 
meth addict who is thinking about this or might read about this 
hearing, we are working closely because the advantage of the 
Internet is it has to be delivered and so as we work with FedEx 
and UPS and others, the Internet may not be quite as handy for 
them as they originally thought.
    I want to make one comment on treatment, because one of the 
challenges in treatment here is since it is a rural area, 
Charlie Cruse is from my district, he is the head of ADMHA, the 
Alcohol and Drug Mental Health Agency that is doing this and 
they are testing meth models and meth is a very difficult--
because it is so addictive--in many ways very difficult to get 
off of. All drugs are, but that in particular. And one of the 
things is that they have this model that they have been 
developing, and in my district we met with all the treatment 
people and the only place that was familiar with the model was 
Fort Wayne, which of course does not have a meth problem. The 
mid-size county that did had heard of it at a workshop, and in 
the most rural counties, they had never had the money to go to 
a workshop. Because it is much like law enforcement, the 
smaller the county, the more junior people you have in drug 
treatment, they are starting out their career or did not have 
as much training, they do not have as many resources, so the 
meth problem is the most complicated treatment and it is the 
problem where you have the least treatment dollars and the 
least experience and the fewest number of people.
    So we are trying to figure out how to adjust inside the 
treatment model because it then becomes the least efficient way 
to try to do drug treatment in the United States when we 
already have a backlog of people seeking treatment.
    But last week, Dr. Barthwell, who used to be Deputy 
Director of ONDCP came in and there is an experimental drug 
that is being run on the market that shows very interesting 
promise. They are doing certain test cases in drug courts in 
the United States. And it is not just for meth but it is for 
others and it is almost like a methadone off of heroin, but it 
stabilizes your brain. Because this is physiological and 
psychological. The problem is that as people get stabilized, 
their appetite for meth will disappear for as much as 2 weeks, 
but what they have found is that then they think they are done 
with their treatment, when in fact there are problems 
underneath it that led to the drug addiction and they will give 
it up and not get into the social support group, the Narcotics 
Anonymous, the Alcoholics Anonymous type of programs.
    But we are trying to figure out how to integrate this new 
drug with the other forms of treatment. It may start to get 
publicized as a magic drug, it is not, because even if you are 
clean for awhile, the addiction is so potent, even if you do 
not have a memory of it, if you get exposed because of the 
groups you are hanging around with or your fundamental problems 
are not addressed, you can drift back into it even--what it 
does is it kills the memory that you used the drug. It is 
fascinating and so there is no attraction to you until you hit 
it again. But if you are in a group that you hit it again, you 
will redevelop the addiction.
    Mr. McHenry.
    Mr. McHenry. Thank you, Mr. Chairman.
    You know, when we had our Sheriffs' Conference last year, 
both Sheriff Clark, Sheriff Byers, the one thing that you all 
said very passionately is that something needs to be done, not 
just because of the addicts, but because of the children in 
these meth labs that are exposed to toxic chemicals and the 
lasting effect it has. And Lynne, you actually spoke of that as 
well. That is a large concern.
    And you two gentlemen are most responsible for me going 
back to Washington looking at ways to add an increased penalty 
for those that produce meth or any controlled substance in the 
presence of a child.
    In North Carolina in 2005, there were over 100 cases with 
children found in the home in meth lab seizures. You said, 
Sheriff Clark, that 75 percent of the meth labs you seize here 
in Caldwell County have children in them. That is very 
frightening. I know that you have come up with some programs to 
look at ways to treat children here in Caldwell County found in 
those circumstances. I wanted to see if you could discuss that.
    Mr. Clark. We have tried to join in with the local 
Department of Social Services and health officials. County 
Commissioners are also in-depth into many of the programs we do 
at the Sheriff's Office. Foothills Mental Health is a big part 
of things that are going on here in the county. But I think 
most importantly, you have to team together. I do not think it 
is just a law enforcement issue or a Department of Social 
Services issue or a Health Department. I think you have to come 
together collectively as a group to sit down and look at the 
law enforcement issues, look at the health issues and those 
social issues, particularly right now with some of the socio-
economic issues that we are facing in Caldwell County, I think 
it is particularly important that we all band together 
collectively to put our heads, if you will, together to come up 
with ways to address this particular problem.
    But out of the last four particular meth seizures that we 
were involved in, three of those did involve children. And one 
of the most alarming ones that I referred to earlier was in 
fact a preschool or day care for children where there was meth 
in the house.
    So once again, I would repeat that there are no social 
barriers or boundaries where methamphetamine is concerned. 
Whereas sometimes when you speak of cocaine at one point in 
time, I think historically looking at that particular drug, it 
was out of the price of most individuals, but now you have 
methamphetamine that has come along, as Sheriff Byers alluded 
to, it is very conducive to particularly just those abusers. It 
is the drug of choice. So we have to continue to band together 
collectively, put our heads together, not only as 
representatives, as law enforcement officials, as health 
officials, but I think we are going to have to continue to band 
together, put our heads together and come up with a plan of 
action to address that particular problem.
    Mr. McHenry. And going right into the same subject, Ms. 
Vasquez, you have spoken of Chad and his involvement in meth. 
When did he get started in meth, as near as you can tell?
    Ms. Vasquez. It has probably been about 3 years, 3\1/2\ 
years.
    Mr. McHenry. Three and a half years.
    Ms. Vasquez. Uh-huh.
    Mr. McHenry. And how old is your grandchild now?
    Ms. Vasquez. I have one 5 and one 3.
    Mr. McHenry. OK.
    Ms. Vasquez. And the other passed away, she died October 
29th this past year.
    The two things that I really want to say in reference to 
what has been said here at the table is I hope that they do not 
get real comfortable with this idea of pseudoephedrine being 
put behind the counter and we have a control on it, because you 
do not have a control on it. Mexican methamphetamine is 10 
times stronger than what has ever been made in a lab at home, 
in a home base, OK? Some of the methamphetamine coming into 
Rutherford County is coming out of Greenville, SC; it does not 
come across the border, this particular did not come across the 
border, it come out of Greenville, SC into Rutherford County, 
10 times stronger. And the base for it is not pseudoephedrine. 
The base for it is Clorox. I do not know how they are breaking 
down that Clorox, I do not know how they are cooking it, 
separating or whatever they have to do, but because you have 
this drug confined behind the counter does not mean that you 
have a control on. So that needs to be looked at.
    The other thing that needs to be looked at, I feel, is that 
my struggle was to get my grandchildren. It became a long, hard 
struggle. I was threatened by DSS for harassment, OK? This is 
hard. They actually gave my daughter-in-law instructions of how 
to have me prosecuted for false information, OK? I understand 
that there is a problem of where to put these children. I 
understand that there are funds that need to be considered. I 
understand that in Rutherford County--I know there are not 
places to put them if they take them out of their home, we do 
not have enough foster parents. But if you have a grandmother 
saying give me my child, you do not have to worry about 
somewhere else to put them. This needs to be taken into 
consideration instead of grouping that grandmother with a bunch 
of other people.
    Mr. McHenry. What types of prevention and rehab programs 
did your son have access to?
    Ms. Vasquez. Actually he went down to--the Federal 
Government had a contract in Cleveland County because there was 
nothing in Rutherford County for them to tag him to. It was 
really just counseling and through the whole ordeal, my son 
said the same thing, they sit and they listen to me but they do 
not hear me, they do not know what this is. My son has 
depression problems, he is ADD. He tells me--and I was thinking 
about this when you were saying what does this person coming in 
to buy this look like. The very last part of my son being on 
methamphetamine, I could not tell. If my son refused to touch 
his children, I knew he was using again. I have two pictures of 
him, one 1 month before he was indicted into Federal court, 
attached to my statement. The other one was taken when they put 
him into Mecklenburg County Jail after sentencing. But you have 
to understand that on the second day of January, my son knew he 
was going to be sentenced on the 5th, I, along with these 
wonderful people that I had to work with me in Asheville, I 
knew that he was going on the 5th. He had no idea, he thought 
he would have six more months at home or 60 days still at home 
before they processed him. My son tried to commit suicide on 
January 2nd.
    But from October until January, my son was using. As you 
can see by the pictures that I put in there, he weighed 196 
pounds, face full, big boy, looks like he is healthy again. No. 
If I had not known he was using myself, no way. The kids told 
me--I am not having anything to do with my kids, I know that he 
was using, period. He is ADD, he has depression problems. I 
talked on the Web with a medical doctor from Duke University, 
problem is, depression problems, ADD, ADHD, they treat them all 
with what, amphetamines.
    The last 6 months that my son used, he could sleep, no 
problem; he could eat, no problem.
    On January 2, 2006, he told me I cannot go to jail for 
something that I did not do. I did part of this but I did not 
do all of it. What do I say? You have to do what the Federal 
Government says for you to do. Ten needles of methamphetamine 
and ran them all on January 2nd. He said with the hopes that it 
would either bust his heart or it blow a vein in his brain. It 
did neither one. I do not know where he got the meth, I do not 
know how that all come about, but that is what happened.
    He decided because that did not kill him, that he would go 
peacefully on January 5th. I am telling you that all meth 
addicts--and my son is an addict--do I believe that when he 
comes home, he is going to have a big problem? I believe that. 
Do I know that only 92 percent ever recover? And I think they 
raised the odds a little bit, only 96 percent, if they were 
needle users, recover. He was a needle user. Do I believe? I 
only believe God. I only believe God. God carried me through 
this. God got me through this. But we cannot be calm or 
convinced we have a hold on it now, because when we get 
relaxed, the problem is going to escalate.
    Mr. McHenry. Yes, ma'am.
    Ms. Vasquez. And through the methamphetamine that has been 
being made, it puts off--you were talking about smells, it puts 
off four different smells, but the new methamphetamine they are 
making that they are using Clorox for does not smell at all.
    Mr. McHenry. Well, going right into your question about the 
slowness of the process. I know that the Sheriff's Department 
in Rutherford County was very engaged with you in trying to 
tackle this. And we have two tracks, we have the Federal track 
and the State track. And we have a prosecutor here from North 
Carolina, Mr. Gaither, and I wanted to ask about what the 
Federal Government can do to assist you as a State prosecutor 
to fight against meth production and trafficking? What are the 
things we can do to assist you and aid you?
    Mr. Gaither. Let me make a couple of points. One, 
Congressman, let us realize that if the Federal Government was 
not already doing what they are doing, we would be faced with 
just a tremendous overload in our courts. So we are very 
thankful for what they are doing currently.
    Our goal, other than specific deterrence, putting that 
individual who we have arrested and brought to court behind 
bars, is also general deterrence. We want to get the message 
out to young people and everybody in the community that this 
type of crime is punished harshly. I would say one of my 
criticisms of the Federal Government is that when they arrest 
somebody and when they prosecute them and give them the lengthy 
sentence that they give them, a lot of times I do not ever read 
about it in the papers or hear about it in the news. And I 
passed this on to Gretchen Shappert and I would like to see 
that change. I think if people saw the 10, 15, 20 year 
sentences that the Federal Government is handing down and how 
they are putting people behind bars for lengthy sentences, you 
might get a general deterrence effect.
    I would like to make one other point. One other thing I 
would like to say is that the worse myth in the world is that 
drug abuse and drug trafficking is a victimless crime. If you 
took out the crimes that are committed by people who are under 
the influence of drugs, our courts would not be empty, but I 
would bet that it would be down 80 percent, 90 percent, it 
would be a huge amount.
    The balance, the net gain for doing what we are doing here 
is tremendous and I just ask that you all continue to have the 
commitment that you have here, have the faith in the people to 
put the money and the resources behind the war on drugs and if 
we can--I believe we can see on this chart here, that there has 
been a stake in the ground, what Gary Clark has been doing with 
the information that we have gotten from the west, with the 
cooperation that we have gotten from the west, I think we have 
slowed the advancement down. But crack cocaine, 
methamphetamine, the whole gamut of drugs, are behind all our 
break-ins, our assaults, all the crimes that we see in the 
courts are drug-related. If we continue to put money behind the 
interdiction of drugs, I think we will see an overall drop in 
crime and I think that the net gain to the community would be 
huge. I just wanted to throw that in there.
    But as far as the Federal Government assisting us further, 
you are doing a tremendous job, we appreciate you very much. I 
am not going to sit here and ask for more. I think the State 
government needs to step up and carry its load.
    Mr. McHenry. Thank you. Thank you, Mr. Gaither, and I 
appreciate the fact that Mr. Byers and Mr. Clark both discussed 
the additional burdens on society that this meth problem 
places. Sheriff Byers said in particular domestic violence, 
Sheriff Clark related that to not just domestic violence but 
robberies and all sorts of property crimes.
    Thank you, Mr. Chairman.
    Mr. Souder. Congresswoman Foxx, do you have anything else?
    Ms. Foxx. Well, I was going to make a comment about the 
fact that these are not victimless crimes and that we can see 
that meth affects everyone in a community, not just those that 
are addicted to it. Domestic violence, all the other crimes, 
the cost of mental health, social services, school system and 
long-term effects for this. I think it is an extremely 
important issue to think about because people cannot just say 
well, my family is not involved with drugs, so I do not care 
what happens, because it is affecting everyone.
    I just appreciate what all of you have done to try to bring 
down the supply of methamphetamine locally, but I think that it 
is very, very important that we pay attention to the figures 
that the chairman used, that 80 percent of the meth is now 
coming from Mexico or Mexican sources. It is very troubling to 
me that is the situation that we are facing.
    Tomorrow, I am going to be hosting a field hearing 
investigating the consequences of our borders, our porous 
borders with Mexico and I am going to raise the issue there 
about this, because I think people who are saying again that we 
do not have to worry about closing the border, are only looking 
at one dimension of the issue. And I think that the American 
public needs to be educated as to the long-term effects of 
this, especially the drugs and what is happening to us.
    So I am very much concerned about this. I do not think--we 
will never stop the flow of illegal drugs, I do not think that 
is possible to do. But I think that we can certainly slow down 
the supply of it. I think we have done a good job in western 
North Carolina with all the law enforcement people, of slowing 
down what is available here. But we have simply got to see this 
as a national issue and a Federal issue. And I want to do 
everything that I can as a Member of Congress to see that we 
shut down the flow coming from Mexico. And I think the public 
needs to be aware of what a serious issue that is for this 
entire country.
    Mr. Souder. Thank you.
    There are a number of things, I think in the next iteration 
that we will be looking at in meth. I wanted to ask Mr. Shaw, 
we heard that--are you looking at the Kentucky example of how--
--
    Mr. Shaw. I am familiar with it, the container program.
    Mr. Souder. Yes. Is that a cost problem in implementing 
that or what is the major stumbling block? I talked to Chairman 
Rogers and it is very difficult because he chairs an 
appropriations subcommittee, he is one of the senior Members of 
Congress. He has put extra money in his district, which he has 
the power to do, because of meth. What is not clear to me, and 
we have been trying to work out a date to go down to Hazard 
County area where they have done this, but it is unclear to me 
whether that particular component, because it certainly would 
help local law enforcement in the contracted out portion, if we 
could get the chemicals in the unit. You say you are looking at 
this. Does it look like a cost question? Is it the evidentiary 
chain in the court process? What are the biggest reasons why we 
cannot go national with this?
    Mr. Shaw. One of the major problems or resistance to this 
program is simply you are taking law enforcement officers and 
you are turning them into hazardous waste handlers. This 
program takes officers having to over-package, use different 
types of adulterants--vermiculite--put it in buckets, load it 
up in trailers, carry it to a holding site, unload trailers, 
meet them back, allow for that to be picked up, where now we 
are utilizing contractors. One of the problems has been is that 
there would only be one contractor per State or one contractor 
per 30 States, with different offices. So for years, our 
closest contractor that was under the Federal contract was out 
of Johnson City, TN. We did not even have an office in North 
Carolina.
    So my opinion, being out there and being one of the agents 
that drove the truck and did that in the early days of this 
program, we need to have more contractors cleared and available 
on the commercial side for quicker response. There is no reason 
I should not be able to use a vendor out of Greensboro or 
Asheville or Charlotte or Raleigh, and I cannot do that at this 
point in time. There are just a couple of vendors we are having 
to use right now.
    That, as I see it, is letting those professionals do that 
job. We are not tying up officers doing that job, they are out 
enforcing the law. So I think that has been some of it.
    Mr. Souder. Why do you think the vendors are slowed down in 
getting cleared?
    Mr. Shaw. I am not sure of the contractual process, I just 
know that typically they are under contract for a period of 
time, they are the sole provider of that service. So we are 
then dependent upon their locations in our State to call upon 
them, because the Federal Government is paying the bill.
    Mr. Souder. Mr. Emerson, sorry to call you up again, but I 
have heard variations of this. Is this predominantly that the 
number of contracts is so small, unless somebody has a wider 
service area, they will not even bid on the contract? Is this 
quality control because these places have a lot of turnover in 
their staff? What would be some of the challenges that would be 
faced in getting more contractors?
    Mr. Emerson. I am sorry, I just cannot answer that 
question.
    Mr. Souder. That is a written question, consider that a 
written question, if you could get back to us and we will also 
followup with Director Tandy.
    Mr. Emerson. Absolutely.
    Mr. Souder. Thank you. Did not mean to put you on the spot 
with that, but since I am going to be 56 this summer, sometimes 
my memory goes very short-term, so unless I do it right there, 
I might have forgot to ask that question.
    Mr. Shaw, did you have anything else to add there?
    Mr. Shaw. That is simply one of the issues. I know that it 
has worked in other States, especially the midwestern States, 
with long distances between towns. I think it is a good program 
for certain States. North Carolina is transitioning to a much 
different State than it was 30 years ago. We are very 
populated. I do not think that--our officers are extremely busy 
and I think if you polled these two sheriffs, they would 
probably say the same thing, that we need to keep that in the 
hand of a contractor for our State and let our agents and 
officers do the job of law enforcement and evidence collection.
    Mr. Souder. I thank all of you for your testimony, being 
very open and direct with us. As you can see, in our next 
iteration, we are looking at a number of things like how do we 
reduce this time at site and what are some creative ways to do 
that. Another thing would be trying to figure out the next 
iteration of OK, if you control the pseudoephedrine, are you 
going to pop to another mixture of the labs, are they going to 
go to the Internet, working with companies that are trying to 
get ahead of the curve as opposed to just being behind it.
    In treatment, we are struggling, but we are certainly 
looking and there are a number of drug treatment, experimental 
efforts. This has gone 2 years ago times four, then last year 
times eight to try to figure out affordable ways to do drug 
treatment, particularly in rural areas as well as urban areas.
    Montana, I met with this amazing man, the Montana Meth 
Project, which was done in the private sector, is 
extraordinary. The question is how to get prevention like that 
and get it coordinated with our national campaigns and to get 
the private sector and others involved. There is no way the 
Federal Government will be able to involve this and this 
individual cannot do this in every State. But I mean the ads 
there and the billboards and the radio and so on, it has 
revolutionalized and grabbed. It will be interesting to see the 
Montana Project as it moves to other States and whether it has 
the same impact and whether it leaves a lasting legacy that 
makes our Federal efforts seem like milk and toast right now, 
at the aggressiveness that they did. So we are looking at this.
    I realize that one thing that the record is not going to 
reflect when I said earlier we are going to have the southwest 
border controlled in 60 days, that was a joke, officially. I do 
not know whether we can put laughter by my comment or whatever, 
so it does not look like----
    Mr. McHenry. Unfortunately it is a joke.
    Mr. Souder [continuing]. We spent, two terms ago, much of 
that year doing north and south border hearings and have 
continued to do that, because in addition to the immigration 
and terrorism questions, I am on Homeland Security and on the 
Border Subcommittee there, too. It is an incredible problem 
because when you are trying to chase a million people roughly 
coming across a year illegally, of which probably 900,000 plus, 
are coming related to work; trying to find the drug addicts and 
the terrorists inside it is impossible. We could put an army of 
200,000 people on the southwest border and not seal it right 
now.
    We did one hearing at the Tohono O'odham reservation 
southwest of Tucson and this was 2 years ago. The previous 
year, they had seized 1,500 pounds of marijuana. From January 
to March of that year, they seized 1,500 pounds of marijuana. 
The day of our hearing, where we had more--this is where Organ 
Pipe National Monument is where the park ranger got killed as 
they were going through, they had to knock off, seal a bunch of 
the trails because it is so dangerous to walk through right now 
because of all the drug runners and coyotes running illegal 
immigrants as well, and armed fighting is occurring a lot. But 
at the Tohono O'odham reservation, which has just been overrun, 
we had all these Federal agents in to testify at our hearing. 
They were so bold, they did not even care to see all the 
Federal agents there. That day, during our hearing from 10 to 
1, they nabbed 1,600 pounds of marijuana of guys running 
through the town where all the Federal agents were sitting. In 
addition, they had a Blackhawk helicopter and others took down 
a group of seven SUVs who shot their way through. They got most 
of the SUVs, but the lead vehicles got through. This is tough 
and they are dealing in areas in the southwest border where 
they do not even pick you up if you have less than 200 pounds 
of marijuana--unless you have more than 200 pounds, a Federal 
case would be 700 pounds.
    It is an overwhelming challenge and we are going through a 
very difficult political period, because unless we can get our 
work permit and other types of things to work with this, I am 
just telling you as somebody who has held hearings in almost 
every single town and many of them multiple times, the major 
cities on the southwest border--it is not possible to control 
the southwest border until we get it down to a workable number. 
We need to seal that, we need more effective things, but there 
has to be some kind of a compromise here. I am saying this 
politically, I know it is not popular to say, but I am telling 
you as somebody who has been down there on the front lines, you 
will not receive the relief in this area until we can get a 
tough border and a tough border also requires some sort of a 
strategy internally, because we are overwhelmed right now and 
it is a huge challenge. But it is likely to be the most 
controversial and the most difficult challenge.
    And as we start to tackle things like the mom and pop labs, 
we push it right back to the southwest border, not to mention 
for those of us from northern States, the Canadian border is 
not exactly sealed. As you heard, the hydroponic marijuana that 
is coming into your area is coming through Canada. The biggest 
terrorist threat to our Nation right now is north, not south, 
even though the RCMP, Royal Canadian Mounted Police, we do not 
have to worry which side they are fighting on, which sometimes 
we have the problem with the southwest. The Canadian Government 
is more responsive in working with us, but on that border, 
there is nothing along the north border. And when we push one 
area, they pop to the other if they are a large trafficking 
organization.
    The reason I asked about Tri-Cities is that we are now 
seeing them working heavily out of Atlanta and they are coming 
into Indiana and they do not come logically through Laredo and 
McAllen and up the shortest way, they will go up through 
California. There is a huge trading mart working up just like 
other wholesale or traders, working up, because the migrant 
workers who pick fruit and tomatoes, they will hide inside them 
and so they will have a season in the west, they will get a 
connection inside the midwest, a connection inside the south, 
they will swap guns to Canada for BC-Bud. They are the same 
dealers as we heard here who are doing the crystal meth, the 
BC-Bud, the guns and you have these big traffic marts around 
the country.
    The DEA is trying to figure out how to take these down. 
That is what these drug task forces are doing. But I hope if 
nothing else that I learned a lot about the particulars here, 
but that you see how inter-related our State and local and 
Federal efforts are right now. Because you might be taking 
somebody down that looks like a local problem, but in reality, 
they are into a regional and into a national and unless we can 
get these different groups taken down and get their finances 
taken down and work together on this, you are likely to be 
picking them up. The Federal Government sometimes thinks they 
are the end all, be all, but you are likely to get the person 
back on the street who you have just got. The question is how 
to turn him to the next one to the next one to the next one, so 
we can get at the source of the stuff that is coming in and 
poisoning our communities.
    So thank you all and thank all your departments. Each 
individual along the way is playing a key role in this because 
we all know at a minimum 75 percent, probably 85 percent of all 
crime is drug and alcohol related, or at least facilitated. So 
thank you for your efforts.
    We will look forward if there are any additional materials 
you want to put into the record or if we have some additional 
questions, we will hold the record open for probably 2 weeks.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
